<html>
<title> - H.R. 1753 AND S. 330, METHANE HYDRATE RESEARCH AND DEVELOPMENT ACT OF 1999</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 H.R. 1753 AND S. 330, METHANE HYDRATE RESEARCH AND DEVELOPMENT ACT OF 
                                  1999

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON ENERGY
                         AND MINERAL RESOURCES

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

H.R. 1753, THE METHANE HYDRATE RESEARCH AND DEVELOPMENT ACT OF 1999, TO 
  PROMOTE THE RESEARCH, IDENTIFICATION, ASSESSMENT, EXPLORATION, AND 
   DEVELOPMENT OF METHANE HYDRATE RESOURCES, AND FOR OTHER PURPOSES;

 S. 330, THE METHANE HYDRATE RESEARCH AND DEVELOPMENT ACT OF 1999, TO 
  PROMOTE THE RESEARCH, IDENTIFICATION, ASSESSMENT, EXPLORATION, AND 
    DEVELOPMENT OF METHANE HYDRATE RESOURCES, AND FOR OTHER PURPOSES

                               __________

                      MAY 25, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-32

                               __________

           Printed for the use of the Committee on Resources

 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                      U.S. GOVERNMENT PRINTING OFFICE
 58-645                      WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado         RUSH D. HUNT, New Jersey

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

              Subcommittee on Energy and Mineral Resources

                    BARBARA CUBIN, Wyoming, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   NICK J. RAHALL II, West Virginia
CHRIS CANNON, Utah                   ENI F.H. FALEOMAVAEGA, American 
KEVIN BRADY, Texas                       Samoa
BOB SCHAFFER, Colorado               SOLOMON P. ORTIZ, Texas
JIM GIBBONS, Nevada                  CALVIN M. DOOLEY, California
GREG WALDEN, Oregon                  PATRICK J. KENNEDY, Rhode Island
THOMAS G. TANCREDO, Colorado         CHRIS JOHN, Louisiana
                                     JAY INSLEE, Washington
                                     ------ ------
                    Bill Condit, Professional Staff
                     Mike Henry, Professional Staff
                  Deborah Lanzone, Professional Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held May 25, 1999........................................     1

Statements of Members:
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming...........................................     1
        Prepared statement of....................................     2
    Doyle, Hon. Michael F., a Representative in Congress from the 
      State of Pennsylvania......................................    22
        Prepared statement of....................................    23
    Underwood, Hon. Robert A., a Delegate in Congress from the 
      Territory of Guam..........................................     3
        Prepared statement of....................................     4

Statements of witnesses:
    Collett, Dr. Timothy S., Research Geologist, U.S. Geological 
      Survey, U.S. Department of Energy..........................    38
        Prepared statement of....................................    40
    Cruickshank, Michael J., Director, Ocean Basins Division, 
      University of Hawaii.......................................    65
        Prepared statement of....................................    67
    Haq, Bilal U., Division of Ocean Sciences, National Science 
      Foundation.................................................    42
        Prepared statement of....................................    43
        Answers to follow-up questions...........................    86
    Kripowicz, Robert S., Principal Deputy Assistant Secretary 
      for Fossil Energy, U.S. Department of Energy...............    25
        Prepared statement of....................................    28
    Trent, Robert H., P.E., PH.D., Dean, School of Mineral 
      Engineering, University of Alaska Fairbanks................    53
        Prepared statement of....................................    54
    Woolsey, Dr. J. Robert, Director, Center for Marine Resources 
      and Environmental Technology, Continental Shelf Division, 
      University of Mississippi..................................    55
        Prepared statement of....................................    57

Additional material supplied:
    Hawaii Natural Energy Institute..............................    87
    Text of H.R. 1753............................................     6
    Text of S. 330...............................................    14


H.R. 1753, THE METHANE HYDRATE RESEARCH AND DEVELOPMENT ACT OF 1999, TO 
  PROMOTE THE RESEARCH, IDENTIFICATION, ASSESSMENT, EXPLORATION, AND 
    DEVELOPMENT OF METHANE HYDRATE RESOURCES, AND FOR OTHER PURPOSES


 S. 330, THE METHANE HYDRATE RESEARCH AND DEVELOPMENT ACT OF 1999, TO 
  PROMOTE THE RESEARCH, IDENTIFICATION, ASSESSMENT, EXPLORATION, AND 
    DEVELOPMENT OF METHANE HYDRATE RESOURCES, AND FOR OTHER PURPOSES

                              ----------                              


                         TUESDAY, MAY 25, 1999

              House of Representatives,    
                         Subcommittee on Energy    
                             and Mineral Resources,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
Room 1324, Longworth House Office Building, Hon. Barbara Cubin 
[chairwoman of the Subcommittee] presiding.

 STATEMENT OF HON. BARBARA CUBIN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF WYOMING

    Mrs. Cubin. The Subcommittee will please to come to order. 
Such a huge attendance here.
    Forgive me for being a few minutes late.
    The Subcommittee on Energy and Minerals meets today to take 
testimony on two similar bills concerning Federal research and 
development efforts on gas hydrates--a class of mineral which 
is a chemical mixture of water and methane gas that can exist 
in a stable, crystalline form. Other gases, such as propane, 
are also found in hydrate form, but the predominant gas is 
methane.
    The hydrate chemical structure is conducive to the storage 
of large volumes of gas. A cubic foot of gas hydrate, when 
heated and depressurized, can release up to 160 cubic feet of 
methane. Consequently, any assessment of our domestic natural 
gas resource is incomplete and woefully understated without 
reference to methane hydrates. Indeed, the U.S. Geological 
Survey, together with the Minerals Management Service, estimate 
the mean undiscovered methane hydrate resource potential to be 
over 100 times greater than is estimated for conventional 
natural gas.
    Much of this resource lies at the edge of the outer 
continental shelf and slope in deep water, but significant 
quantities appear to exist within the permafrost regions at 
depths as shallow as 200 meters. However, gas hydrates are 
merely resources, not reserves, because their exploitation is 
sub-economic at this time, which isn't I guess unlike a lot of 
conventional gas today because of depressed prices, but that is 
for another hearing.
    The Subcommittee's interest stems from the future potential 
for leasing of gas hydrates on Federal mineral estate under the 
OCS Lands Act and onshore in Alaska under the Mineral Leasing 
Act.
    And, if we can convince the Congressional Budget Office to 
score the revenue potential from such leasing while I am still 
here in Congress, then I will have some of my very own offsets, 
and I will share some with you, too.
    [Laughter.]
    Furthermore, the Federal R&D program envisioned in the 
bills before us include participation by the U.S. Geological 
Survey, an agency which is also within our jurisdiction. Both 
bills modify the charter of the marine mineral research centers 
established by Public Law 104-325, by way of legislation from 
this Subcommittee.
    I want to welcome our witnesses since they have come from 
far flung outposts--Honolulu, Hawaii, and Fairbanks, Alaska--
well, actually, Fairbanks, Alaska, by way of Kaycee, Wyoming, I 
have to point out--as well as from Denver, Oxford, Mississippi, 
and Washington, DC.
    Your testimony summarizes the current state of scientific 
knowledge on the origin, occurrence, and potential for 
utilization of methane hydrates to help meet America's energy 
needs and to understand past impacts upon global climate from 
uncontrolled release of methane from gas hydrates. Also, 
Congressman Mike Doyle, of Pittsburgh, a member of the House 
Science Committee which shares jurisdiction over these bills, 
has asked to testify before us about his sponsorship of H.R. 
1753.
    I look forward to hearing from all of you about the need 
for authorizing this important Federal program.
    [The prepared statement of Mrs. Cubin follows:]

Statement of Hon. Barbara Cubin, a Representative in Congress from the 
                            State of Wyoming

    The Subcommittee on Energy and Minerals meets today to take 
testimony on two similar bills concerning Federal research and 
development efforts on gas hydrates--a class of mineral which 
is a chemical mixture of water and methane gas that can exist 
in a stable, crystalline (ice) form. Other gases, such as 
propane, are also found in hydrate form, but the predominant 
gas is methane. The hydrate chemical structure is conducive to 
the storage of large volumes of gas. A cubic foot of gas 
hydrate, when heated and depressurized, can release up to 160 
cubic feet of methane. Consequently, any assessment of our 
domestic natural gas resource is incomplete and woefully 
understated without reference to methane hydrates. Indeed, the 
U.S. Geological Survey, together with the Minerals Management 
Service, estimated the mean undiscovered methane hydrate 
resource potential to be over one hundred times greater than is 
estimated for conventional natural gas!
    Much of this resource lies at the edge of the outer 
continental shelf and slope in deep water, but significant 
quantities appear to exist within permafrost regions at depths 
as shallow as 200 meters. However, gas hydrates are merely 
resources, not reserves, because their exploitation is sub-
economic at this time.
    The Subcommittee's interest stems from the future potential 
for leasing of gas hydrates on Federal mineral estate under the 
OCS Lands Act and onshore in Alaska under the Mineral Leasing 
Act. Furthermore, the Federal R & D program envisioned in the 
bills before us include participation by the U.S. Geological 
Survey, an agency within our jurisdiction. Also, both bills 
modify the charter of the marine mineral research centers 
established by Public Law 104-325, via legislation from this 
Subcommittee.
    I want to welcome our witnesses from far flung outposts--
Honolulu, Hawaii and Fairbanks, Alaska as well as from Denver, 
Oxford, Mississippi and Washington DC. Your testimony 
summarizes the current state of scientific knowledge on the 
origin, occurrence, and potential for utilization of methane 
hydrates to help meet America's energy needs, and to understand 
past impacts upon global climate from uncontrolled release of 
methane from gas hydrates. Also, Congressman Mike Doyle of 
Pittsburgh, a member of the House Science Committee which 
shares jurisdiction over these bills, has asked to testify 
before us about his sponsorship of H.R. 1753. I look forward to 
hearing from all of you about the need for authorizing this 
important Federal program.

    Mrs. Cubin. And now I recognize our Ranking Member, Mr. 
Underwood, for any opening statement he might have.

 STATEMENT OF HON. ROBERT A. UNDERWOOD, A DELEGATE IN CONGRESS 
                   FROM THE TERRITORY OF GUAM

    Mr. Underwood. I thank the Chair, and I thank her for her 
generosity with the offset.
    [Laughter.]
    Mrs. Cubin. Oh, you don't get half.
    Mr. Underwood. Okay.
    [Laughter.]
    Mrs. Cubin. Yes, you do.
    Mr. Underwood. I am pleased to join my colleagues on the 
Subcommittee today as we meet to hear testimony on H.R. 1753 
and S. 330, the Methane Hydrate Research and Development Act of 
1999.
    H.R. 1753 was introduced on May 11, by our colleague, 
Representative Mike Doyle, of Pennsylvania, who is here this 
afternoon to explain his bill. H.R. 1753 is a companion measure 
to S. 330 which has already passed the Senate under unanimous 
consent on April 19.
    I note that we share jurisdiction on this bill with the 
House Science Committee. The Science Subcommittee on Energy and 
the Environment held a hearing and reported favorably both 
bills, as amended, on May 12.
    The primary purpose of these bills is to promote the 
research, identification, assessment, exploration, and 
development of methane hydrate resources. This is important 
because one of our most important sources of clean, efficient 
energy is natural gas. Today, natural gas comes primarily from 
geological formations in which methane molecules--the primary 
component of natural gas--exist in the form of gas.
    Methane also exists in ice-like formations called hydrates. 
Hydrates trap methane molecules inside a cage of frozen water. 
Hydrates are generally found on or under seabeds and under 
permafrost. While we do not know the extent or amount of 
methane trapped in hydrates, scientists--some of whom will be 
testifying today--believe we are talking about an enormous 
resource.
    According to the U.S. Geological Survey, worldwide 
estimates of the natural gas potential of methane hydrates 
approach 400 million trillion cubic feet--as compared to the 
mere 5,000 trillion cubic feet that is known to make up the 
world's gas reserves. This huge potential illustrates the 
interest in advanced technologies that may reliably and cost-
effectively detect and produce natural gas from methane 
hydrates.
    However, figuring out how to cost-effectively produce 
energy from hydrates has been problematic, given the adverse 
and hostile conditions in which they exist. But if methods can 
be devised to extract methane from these deposits profitably, 
they may become important sources of fuel in the future.
    On a cautionary note, we should be mindful of the fact 
that, although methane is relatively clean burning, it is still 
a fossil fuel. So removing it from its safe haven on the ocean 
floor and burning it will release carbon in the form of carbon 
dioxide into the atmosphere, which could contribute to 
greenhouse gas accumulations.
    Methane hydrates near offshore oil drilling rigs also pose 
a threat through subsidence on the ocean floor. For instance, 
if a drilling rig were hit by shifting or depressurization of 
the methane hydrates underneath it, the impact on the rig and 
the workers aboard could be disastrous.
    Therefore, it is appropriate that Congress looks carefully 
at legislation which would promote the research, 
identification, assessment, exploration, and development of 
methane hydrates resources.
    And I look forward to hearing the testimony of our 
witnesses today, especially that of our colleague.
    [The prepared statement of Mr. Underwood follows:]

Statement of Hon. Robert A. Underwood, a Delegate in Congress from the 
                             State of Guam

    I am pleased to join my colleagues on the Subcommittee 
today as we meet to hear testimony on H.R. 1753 and S. 330, the 
Methane Hydrate Research and Development Act of 1999. H.R. 1753 
was introduced on May 11, by our colleague Rep. Mike Doyle, of 
Pennsylvania, who is here to explain his bill to us.
    H.R. 1753 is a companion bill to S. 330 which has already 
passed the Senate under Unanimous Consent on April 19. I note 
that we share jurisdiction on this bill with the House Science 
Committee. The Science Subcommittee on Energy and the 
Environment held a hearing and reported favorably both bills, 
as amended on May 12.
    The primary purpose of these bills is to promote the 
research, identification, assessment, exploration and 
development of methane hydrate resources. This is important 
because one of our most important sources of clean, efficient 
energy is natural gas. Today, natural gas comes primarily from 
geological formations in which methane molecules--the primary 
component of natural gas--exist in the form of gas.
    Methane also exists in ice-like formations called hydrates. 
Hydrates trap methane molecules inside a cage of frozen water. 
Hydrates are generally found on or under seabeds and under 
permafrost. While we do not know the extent or amount of 
methane trapped in hydrates, scientists, some of whom will be 
testifying today, believe we are talking about an enormous 
resource. According to the United States Geological Survey, 
worldwide estimates of the natural gas potential of methane 
hydrates approach four hundred million trillion cubic feet--as 
compared to the mere five thousand trillion cubic feet that 
make up the world's known gas reserves. This huge potential 
illustrates the interest in advanced technologies that may 
reliably and cost-effectively detect and produce natural gas 
from methane hydrates.
    However, figuring out how to cost-effectively produce 
energy from hydrates has been problematic given the adverse and 
hostile conditions in which they exist. But if methods can be 
devised to extract methane from these deposits profitably, they 
may become important sources of fuel in the future.
    On a cautionary note, we should be mindful of the fact that 
although methane is relatively clean burning, it is a fossil 
fuel. So removing it from its safe haven on the ocean floor and 
burning it, will release carbon, in the form of carbon dioxide 
into the atmosphere, which would contribute to greenhouse gas 
accumulations.
    Methane hydrates near offshore oil drilling rigs also pose 
a threat, through subsidence on the ocean floor. For instance, 
if a drilling rig were hit by shifting or depressurization of 
the methane hydrates underneath it, the impact on the rig and 
the workers aboard could be disastrous.
    Therefore, it is appropriate that the Congress looks 
carefully at legislation which would promote the research, 
identification, assessment, exploration and development of 
methane hydrate resources.
    I look forward to hearing the testimony of our witnesses 
today.

    [The text of the bills follows:]

    [GRAPHIC] [TIFF OMITTED] T8645.001
    
    [GRAPHIC] [TIFF OMITTED] T8645.002
    
    [GRAPHIC] [TIFF OMITTED] T8645.003
    
    [GRAPHIC] [TIFF OMITTED] T8645.004
    
    [GRAPHIC] [TIFF OMITTED] T8645.005
    
    [GRAPHIC] [TIFF OMITTED] T8645.006
    
    [GRAPHIC] [TIFF OMITTED] T8645.007
    
    [GRAPHIC] [TIFF OMITTED] T8645.008
    
    [GRAPHIC] [TIFF OMITTED] T8645.009
    
    [GRAPHIC] [TIFF OMITTED] T8645.010
    
    [GRAPHIC] [TIFF OMITTED] T8645.011
    
    [GRAPHIC] [TIFF OMITTED] T8645.012
    
    [GRAPHIC] [TIFF OMITTED] T8645.013
    
    [GRAPHIC] [TIFF OMITTED] T8645.014
    
    [GRAPHIC] [TIFF OMITTED] T8645.015
    
    [GRAPHIC] [TIFF OMITTED] T8645.016
    
    Mrs. Cubin. Thank you, Mr. Underwood.
    And I guess I have to admit it is really easy to share 
those offsets when we will probably both die of old age before 
the CBO gives us a score on that.
    I would like introduce our first witness, the Honorable 
Michael F. Doyle from Pennsylvania.
    Welcome.

    STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Doyle. Thank you very much, Madam Chairman, and Ranking 
Member Mr. Underwood, and all of my colleagues on the 
Committee, for holding this important hearing today.
    I know that for some of my colleagues, as I have worked on 
this issue in the Science Committee, methane hydrates must have 
seemed like a very obscure subject, and I would like to commend 
your Committee for seeing beyond that and giving this esoteric 
issue the attention it deserves.
    In short, methane hydrates are little-known, but have a 
huge potential as a new energy resource. Methane hydrates are 
defined as methane in a crystalline, highly-pressurized form, 
and are found both on the ocean floor and in some ares of the 
Arctic permafrost. As a potential energy source, methane 
hydrates are present on Earth in more than double the 
quantities of existing fossil energy supplies worldwide.
    At the same time, methane hydrates pose a threat to us as 
well, for their potential to depressurize and enter the 
atmosphere, contributing to greenhouse gas accumulations.
    Methane hydrates located on the sea floor underneath 
offshore oil drilling rigs could pose an even greater, near-
term threat. If an oil drilling rig were hit by a massive 
shifting or depressurization of the methane hydrates in the 
sediment at the bottom of the ocean underneath it, the impact 
on the rig and the workers aboard could be disastrous.
    For all of these reasons, methane hydrates definitely 
deserves further study at this time.
    My staff and I have had the pleasure of working a little 
bit with the chairman's staff on my bill, H.R. 1753. This 
legislation would further define and extend the current 
interagency program for research into methane hydrates.
    My bill follows, for the most part, on Senator Akaka's 
bill, S. 330, with a few changes, primarily the institution of 
merit review of research proposals.
    In the Science Committee, I have been pleased to be able to 
work with members from both sides of the aisle on this issue, 
including my friend, Chairman of the Science Energy and 
Environment Subcommittee, Ken Calvert, who I believe previously 
served as Chairman of the Energy and Mineral Resources 
Subcommittee. And I would like to continue that unbroken string 
of cooperation across the aisle. As your Committee continues 
consideration of methane hydrates, I would like, at some point, 
to resume the discussions I have had with the Committee staff 
about changes to the text, if necessary, and any other way I 
might enlist your support.
    In the Science Committee, I was pleased to see the bill 
receive a favorable report from the subcommittee on May 12. And 
along with my colleagues on both sides of the aisle, I am 
looking forward to a full committee mark at some point soon.
    Just this morning on the Science Committee, I was assured 
by Jim Sensenbrenner, chairman of the committee, that reporting 
my bill from the full committee and moving it to the floor on 
the suspension calendar is one of the options he is looking at, 
as we work to complete consideration of this issue.
    The research program is run by the Department of Energy, 
specifically the Federal Energy Technology Center. The FETC, as 
it is called, has convened working groups to develop ``straw-
man'' proposals that outline a methane hydrates research 
program, and program management staff at the center plans to 
enter work agreements with scientists at USGS, the Naval 
Research Lab, the DOE national labs, marine mineral researchers 
in Mississippi, Hawaii, Alaska, and other States, and other 
agencies, academic centers, and companies with relevant 
expertise.
    For this reason, appropriated funds are expected to be 
directed to DOE, though I understand there may be some 
ambiguity on this question that we can clear up as the bill 
moves closer to floor consideration.
    As I mentioned before, this is a rather esoteric subject. 
Bob Kripowicz, whom I have worked with for a long time, and 
other witnesses here today, are far more expert than I am on 
this subject. But if you have any questions that I can answer 
specific to my legislation, or the differences between it and 
Senator Akaka's bill, I would be happy to hear them.
    I also have one further thing to add to my testimony, as 
submitted.
    With methane and other gas hydrates located in the Arctic 
permafrost, throughout the oceans, and particularly at the 
bottom of such ocean features as the Marianas Trench, which is 
located near Guam, and with the Japanese planning to drill for 
hydrates this year in a similar trench, the Nankei Trough, off 
the southeast of Japan, a field hearing on methane hydrates 
might well be in order.
    I understand that there is some interest in the Committee 
in a field hearing on the subject of manganese nodules on the 
ocean floor, and I would certainly lend my support and work to 
make a field hearing on that subject and methane hydrates a 
success.
    With that, I conclude my testimony, and I am happy to 
answer any questions the Committee have.
    And thank you very much, Madam Chairman.
    [The prepared statement of Mr. Doyle follows:]

  Statement of Hon. Mike Doyle, a Representative in Congress from the 
                         State of Pennsylvania

    I would like to thank Madam Chairman Cubin, the Ranking 
Member, Mr. Underwood, and my colleagues on the Committee for 
holding this important hearing today. I know for some of my 
colleagues, as I've worked this issue on the Science Committee, 
``methane hydrates'' must have seemed like a very obscure 
subject, and I would like to commend your Committee for seeing 
beyond that, and giving this esoteric issue the attention it 
deserves.
    In short, methane hydrates are little-known, but have a 
huge potential as a new energy resource. Methane hydrates are 
defined as methane in a crystalline, highly pressurized form, 
and are found both on the ocean floor and in some areas of the 
Arctic permafrost. As a potential energy source, methane 
hydrates are present on earth in more than double the 
quantities of existing fossil energy supplies worldwide.
    At the same time, methane hydrates pose a threat to us as 
well, for their potential to depressurize and enter the 
atmosphere, contributing to greenhouse gas accumulations.
    Methane hydrates located on the sea floor underneath 
offshore oil drilling rigs could pose an even greater, near-
term threat. If an oil drilling rig were hit by a massive 
shifting or depressurization of the methane hydrates in the 
sediment at the bottom of the ocean underneath it, the impact 
on the rig and the workers aboard could be disastrous.
    For all these reasons, methane hydrates definitely deserve 
further study at this time.
    My staff and I have had the pleasure of working a little 
bit with the Chairman's staff on my bill, H.R. 1753. This 
legislation would further define and extend the current inter-
agency program for research into methane hydrates. My bill 
follows for the most part on Senator Akaka's bill, S. 330, with 
a few changes, primarily the institution of merit review of 
research proposals.
    In the Science Committee I have been pleased to be able to 
work with Members from both sides of the aisle on this issue, 
including my friend the Chairman of the Science Energy and 
Environment Subcommittee, Ken Calvert, who I believe has 
previously served as the Chairman of the Energy and Mineral 
Resources Subcommittee. I'd like to continue this unbroken 
string of cooperation across the aisle. As your Committee 
continues consideration of methane hydrates, I would like at 
some point to resume the discussions I had with the Committee's 
staff about changes to the text, if necessary, and any other 
way I might enlist your support. In the Science Committee I was 
pleased to see the bill receive a favorable report from the 
subcommittee on May 12, and along with my colleagues on both 
sides of the aisle. I'm looking forward to a full Committee 
mark at some point soon.
    The research program is run by the Department of Energy, 
specifically the Federal Energy Technology Center. The FETC, as 
it's called, has convened working groups to develop ``straw-
man'' proposals that outline a methane hydrates research 
program, and program management staff at the Center plan to 
enter work agreements with scientists at USGS, the Naval 
Research Lab, the DOE national labs, marine minerals 
researchers in Mississippi, Hawaii, Alaska, and other states, 
and other agencies, academic centers, and companies with 
relevant expertise. For this reason, appropriated funds are 
expected to be directed to DOE, though I understand there may 
be some ambiguity on this question that we can clear up as the 
bill moves closer to floor consideration.
    As I mentioned before, this is a rather esoteric subject. 
Bob Kripowicz, whom I've worked with for a long time, and the 
other witnesses here today are far more expert than I am on 
this subject. But if you have any questions I can answer 
specific to my legislation, or the differences between it and 
Senator Akaka's bill, I'd be happy to hear them.

    Mrs. Cubin. Thank you, Congressman.
    I don't have any questions of the Congressman.
    Mr. Underwood?
    Mr. Underwood. Well, thank you very much, and now that you 
have clarified that there is the potential for methane hydrates 
being near Guam, I am for this legislation.
    [Laughter.]
    Mrs. Cubin. It does make a difference, doesn't it?
    Mr. Underwood. Does make a difference.
    [Laughter.]
    Thank you.
    Mr. Doyle. I think a field hearing in Guam is in order.
    Mr. Underwood. I think that field hearing in Guam is a 
great idea.
    [Laughter.]
    Along with a manganese nodule.
    [Laughter.]
    Mrs. Cubin. Thank you very much for your testimony.
    Mr. Underwood. Thank you.
    Mrs. Cubin. Thank you for being here.
    Now I will introduce our first panel of witnesses--Mr. 
Robert Kripowicz, with the U.S. Department of Energy; Dr. 
Timothy S. Collett, with the U.S. Geological Survey; Dr. Bilal 
U. Haq, with the National Science Foundation--and I probably 
didn't say that correctly. I did?
    I would like to call on Mr. Robert Kripowicz to begin the 
testimony.

 STATEMENT OF ROBERT S. KRIPOWICZ, PRINCIPAL DEPUTY ASSISTANT 
     SECRETARY FOR FOSSIL ENERGY, U.S. DEPARTMENT OF ENERGY

    Mr. Kripowicz. Madam Chairman, members of the Subcommittee, 
I appreciate the opportunity to present the views of the 
Department of Energy, and I have submitted a formal statement 
that I would like to be made a part of the record.
    Mrs. Cubin. Without objection.
    Mr. Kripowicz. I have described in my formal statement the 
chemical and physical makeup of methane hydrates and a little 
of the history behind their discovery and our renewed interest 
in them.
    Suffice to say, I would hope that from my testimony and 
from others on the panel, the Subcommittee will recognize the 
significant potential of this resource. The energy content is 
not only many times--but many hundreds of times--larger than 
the world's currently known gas reserves.
    This huge potential alone, we believe, warrants a new look 
at advanced technologies that might one day detect and produce 
natural gas from hydrates reliably and cost effectively.
    I might also mention that aside from the enormous energy 
potential, we believe a research effort in gas hydrates is 
important from the perspective of safety. As I have described 
in my statement, the existence or formation of hydrates in 
petroleum operations can create safety problems for well 
operators.
    As a result of the new interest in methane hydrates, in 
Fiscal Year 1998, the Office of Fossil Energy at the Department 
of Energy revived research into this resource, albeit at a very 
limited scale. In Fiscal Year 2000, we have proposed a budget 
of approximately $2 million to begin carrying out initial 
exploratory efforts.
    Our new initiative will build on research conducted by the 
Department from 1982 to 1992. During that initial effort, we 
developed a foundation of basic knowledge about the location 
and thermodynamic properties of hydrates.
    Since 1992, work has continued at relatively small scales, 
primarily through the Ocean Drilling Program, and the U.S. 
Geological Survey, and in other laboratories, including some 
work in Japan.
    Our new effort in hydrates largely stems from the 
recommendation of the Energy Research and Development Panel of 
the President's Committee of Advisors on Science and 
Technology, or PCAST. Following the PCAST report, the 
Department hosted two public workshops last year to obtain 
industry and academic input into developing a coordinated, 
multi-agency program.
    The planning efforts resulted in this document, ``A 
Strategy for Methane Hydrates Research and Development,'' which 
we published last August, and we have provided copies for the 
Committee members and staff. An electronic version of the 
document can be downloaded from the Fossil Energy Internet 
website.
    I should point out that we are in the final stages of 
preparing a more detailed program plan that will begin 
addressing the specific research needs identified in the 
strategy document.
    The research program is intended to answer four specific 
questions.
    Number one, how much? The huge range in estimates of 
hydrate volume underscores the lack of detailed understanding 
of the aspects of hydrate deposits. Our efforts in resource 
characterization will give us much information on the location 
and nature of methane hydrates.
    Second is how to produce the resource. Except in one 
Russian field, there is no documented commercial gas production 
associated with hydrates. Much more work is needed in 
depressurization, thermal processes, and solvent injection to 
understand how best to produce the resource.
    Third is how to assess the impact. Virtually nothing is 
known about the stability of gas hydrates, especially those 
along the sea floor, in a period of potential global climate 
change. For example, we don't know whether warming of the sea 
water could affect outcrops of methane hydrates at or near the 
sea floor and lead to significant releases of methane, a gas 
which is 20 times more potent than carbon dioxide as a 
greenhouse gas.
    And, lastly is how to ensure safety. This is one of the 
highest priorities at this time for industry. Arctic and marine 
hydrates are known to cause drilling problems, blowouts, casing 
collapse, and well-site subsidence in conventional drilling and 
production. Research is needed to accurately document drilling 
and production problems caused by gas hydrates and to develop 
techniques to avoid or mitigate hazards. We also need to study 
the long-term impacts on sea floor stability.
    The two bills, S. 330 and H.R. 1753, provide a solid 
congressional endorsement of the research effort we proposed in 
this strategy, and the Department supports the legislation.
    We are particularly pleased to see Congress emphasize the 
need to develop partnerships among the government, industry, 
and academia in future hydrate R&D. This concept of public/
private partnerships, with shared responsibilities and 
resources, is fundamental to our fossil energy R&D program.
    We are also pleased that the Congress has recognized the 
importance of cooperation among Federal agencies in developing 
hydrate technologies. As I said earlier, we would not be nearly 
as well positioned to begin a new, intensified examination of 
hydrate potential had it not been for the excellent work of the 
USGS and the Naval Research Laboratory.
    The coordinated involvement of these organizations and 
others, such as the Minerals Management Service and the 
National Science Foundation, will be essential in carrying out 
a productive and effectively managed R&D program.
    And that concludes my opening statement.
    Thank you.
    [The prepared statement of Mr. Kripowicz follows:]

    [GRAPHIC] [TIFF OMITTED] T8645.017
    
    [GRAPHIC] [TIFF OMITTED] T8645.018
    
    [GRAPHIC] [TIFF OMITTED] T8645.019
    
    [GRAPHIC] [TIFF OMITTED] T8645.020
    
    [GRAPHIC] [TIFF OMITTED] T8645.021
    
    [GRAPHIC] [TIFF OMITTED] T8645.022
    
    [GRAPHIC] [TIFF OMITTED] T8645.023
    
    [GRAPHIC] [TIFF OMITTED] T8645.024
    
    [GRAPHIC] [TIFF OMITTED] T8645.025
    
    [GRAPHIC] [TIFF OMITTED] T8645.026
    
    Mrs. Cubin. Thank you very much.
    Next, I would like to recognize Dr. Timothy S. Collett, for 
his testimony.

 STATEMENT OF DR. TIMOTHY S. COLLETT, RESEARCH GEOLOGIST, U.S. 
          GEOLOGICAL SURVEY, U.S. DEPARTMENT OF ENERGY

    Dr. Collett. Thank you.
    Mr. Chairman, and members, I am Timothy S. Collett, 
research geologist with the U.S. Geological Survey.
    In this testimony, I will discuss the USGS assessment of 
natural gas hydrate resources and examine the technology that 
would be necessary to safely and economically produce gas 
hydrates.
    The primary objectives of the existing USGS gas hydrate 
research studies are: one, to document the geological 
parameters that control the occurrence and stability of gas 
hydrates; two, to assess the volume of natural gas stored 
within gas hydrate accumulations; and, three, to identify and 
predict natural sediment destabilization caused by gas 
hydrates; and finally, four, to analyze the effects of gas 
hydrate on drilling safety.
    The USGS, in 1995, made the first systematic assessment of 
the in-place natural gas hydrate resources of the United 
States. This study shows that the amount of gas in hydrate 
accumulations in the United States is dramatic.
    Even though gas hydrates are known to occur in numerous 
marine and Arctic settings, little is known about the geologic 
controls on their distribution. The presence of gas hydrates in 
offshore continental margins have been inferred mainly from 
anomalous seismic reflectors that coincide with the base of the 
gas hydrate stability zone. This reflector, commonly called the 
``bottom simulator reflector'' or ``BSR'' has been mapped at 
depths ranging from 0 to 1,100 meters below the sea floor. Gas 
hydrates have also been recovered by scientific drilling along 
the Atlantic, Gulf of Mexico, and Pacific coasts of the United 
States.
    Onshore gas hydrates have been found in Arctic regions of 
permafrost. Gas hydrates associated with the permafrost have 
been documented on the North Slope of Alaska and Canada, and in 
northern Russia. Combined information from Arctic gas hydrate 
studies show that, in permafrost regions, gas hydrates may 
exist at subsurface depths ranging from 130 to 2,000 meters.
    The USGS 1995 National Assessment of United States' Oil and 
Gas Resources focused on assessing the undiscovered 
conventional and unconventional resources of crude oil and 
natural gas in the United States. This assessment included, for 
the first time, a systematic appraisal of the in-place natural 
gas hydrate resources in the United States in both onshore and 
offshore environments. That study indicates that the in-place 
gas hydrate resources of the United States are estimated to 
range from 113,000 to 676,000 trillion cubic feet of gas. 
Although this range of values shows a high degree of 
uncertainty, it does indicate the potential for enormous 
quantities of gas stored as gas hydrates. However, this 
assessment does not address the problem of gas hydrate 
recoverability.
    Proposed methods of gas recovery from hydrates usually deal 
with disassociating or melting gas hydrates by heating the 
reservoir, or by decreasing the reservoir pressure, or by 
injecting an inhibitor such as methanol into the formation. 
Among the various techniques for production of natural gas from 
gas hydrates, the most economically promising method is 
considered to be depressurization. The Messoyakha gas field in 
northern Russia is often used as an example of a hydrocarbon 
accumulation from which gas has been produced from hydrates by 
reservoir depressurization.
    Seismic-acoustic imaging to identify gas hydrates is an 
essential component of the USGS marine studies since 1990. USGS 
has also conducted extensive geochemical surveys and 
established a specialized laboratory facility to study the 
formation and disassociation of gas hydrates in nature and also 
under simulated sea floor conditions. These efforts have also 
involved core drilling of gas hydrate-bearing samples in 
cooperation with the Ocean Drilling Program of the National 
Science Foundation, and, most recently, a cooperative drilling 
program onshore in northern Canada.
    Sea floor stability and safety are two important issues 
related to gas hydrates. Sea floor stability refers to the 
susceptibility of the sea floor to collapse and slide as a 
result of gas hydrate disassociation. Safety issue refers to 
petroleum drilling and production hazards that may occur in 
association with gas hydrates.
    In regards to sea floor stability, it is possible that both 
natural and human induced changes contribute to in-situ gas 
hydrate destabilization which may convert hydrate-bearing 
sediments to gassy, water-rich fluids, triggering sea floor 
subsidence and catastrophic landslides. Evidence implicating 
gas hydrates in triggering sea floor landslides has been found 
along the Atlantic Ocean margin of the United States. However, 
the mechanisms controlling gas hydrate induced sea floor 
subsidence and landslides are not well known or documented.
    In regards to safety, oil and gas operators have described 
numerous drilling and production problems attributed to the 
presence of gas hydrates, including uncontrolled gas releases 
during drilling, collapse of wellbore casings, and gas leakages 
to the surface. Again, the mechanism controlling gas hydrate 
induced safety problems is not well known.
    In conclusion, our knowledge of natural-occurring gas 
hydrates is limited. Nevertheless, a growing body of evidence 
suggests that a huge volume of natural gas is stored in gas 
hydrates; the production of natural gas from gas hydrates may 
be technically feasible; gas hydrates hold the potential for 
natural hazards associated with sea floor stability and release 
of methane to the oceans and the atmosphere; and gas hydrates 
disturbed during drilling and petroleum production pose a 
potential safety problem.
    The USGS welcomes the opportunity to collaborate with other 
domestic and international scientific organizations to further 
our collaborative understanding of these important geologic 
materials.
    I would like to thank the Committee for this opportunity 
and I would refer the Committee to my written testimony for 
additional information on natural gas hydrates.
    Thank you.
    [The prepared statement of Dr. Collett follows:]

 Statement of Timothy S. Collett, Research Geologist, U.S. Geological 
                                 Survey

Mr. Chairman and Members:
    I am Timothy S. Collett, Research Geologist with the U.S. 
Geological Survey (USGS). In this testimony I will discuss the 
USGS assessment of natural gas hydrate resources and examine 
the technology that would be necessary to safely and 
economically produce gas hydrates.

I. Summary

    The primary objectives of USGS gas hydrate research are to 
document the geologic parameters that control the occurrence 
and stability of gas hydrates, to assess the volume of natural 
gas stored within gas hydrate accumulations, to identify and 
predict natural sediment destabilization caused by gas hydrate, 
and to analyze the effects of gas hydrate on drilling safety. 
The USGS in 1995 made the first systematic assessment of the 
in-place natural gas hydrate resources of the United States. 
That study shows that the amount of gas in the hydrate 
accumulations of the United States greatly exceeds the volume 
of known conventional domestic gas resources. However, gas 
hydrates represent both a scientific and technologic frontier 
and much remains to be learned about their characteristics and 
possible economic recovery.

II. Gas Hydrate Occurrence and Characterization

    Gas hydrates are naturally occurring crystalline substances 
composed of water and gas, in which a solid water-lattice holds 
gas molecules in a cage-like structure. Gas hydrates are 
widespread in permafrost regions and beneath the sea in 
sediments of the outer continental margins. While methane, 
propane, and other gases are included in the hydrate structure, 
methane hydrates appear to be the most common. The amount of 
methane contained in the world's gas hydrate accumulations is 
enormous, but estimates of the amounts are speculative and 
range over three orders-of-magnitude from about 100,000 to 
270,000,000 trillion cubic feet of gas. Despite the enormous 
range of these estimates, gas hydrates seem to be a much 
greater resource of natural gas than conventional 
accumulations.
    Even though gas hydrates are known to occur in numerous 
marine and Arctic settings, little is known about the geologic 
controls on their distribution. The presence of gas hydrates in 
offshore continental margins has been inferred mainly from 
anomalous seismic reflectors that coincide with the base of the 
gas-hydrate stability zone. This reflector is commonly called a 
bottom-simulating reflector or BSR. BSRs have been mapped at 
depths ranging from about 0 to 1,100 in below the sea floor. 
Gas hydrates have been recovered by scientific drilling along 
the Atlantic, Gulf of Mexico, and Pacific coasts of the United 
States, as well as at many international locations.
    To date, onshore gas hydrates have been found in Arctic 
regions of permafrost and in deep lakes such as Lake Baikal in 
Russia. Gas hydrates associated with permafrost have been 
documented on the North Slope of Alaska and Canada and in 
northern Russia. Direct evidence for gas hydrates on the North 
Slope of Alaska comes from cores and petroleum industry well 
logs which suggest the presence of numerous gas hydrate layers 
in the area of the Prudhoe Bay and Kuparuk River oil fields. 
Combined information from Arctic gas-hydrate studies shows 
that, in permafrost regions, gas hydrates may exist at 
subsurface depths ranging from about 130 to 2,000 meters.
    The USGS 1995 National Assessment of United States Oil and 
Gas Resources focused on assessing the undiscovered 
conventional and unconventional resources of crude oil and 
natural gas in the United States. This assessment included for 
the first time a systematic appraisal of the in-place natural 
gas hydrate resources of the United States, both onshore and 
offshore. Eleven gas-hydrate plays were identified within four 
offshore and one onshore gas hydrate provinces. The offshore 
provinces lie within the U.S. 200 mile Exclusive Economic Zone 
adjacent to the lower 48 States and Alaska. The only onshore 
province assessed was the North Slope of Alaska. In-place gas 
hydrate resources of the United States are estimated to range 
from 113,000 to 676,000 trillion cubic feet of gas, at the 0.95 
and 0.05 probability levels, respectively. Although this range 
of values shows a high degree of uncertainty, it does indicate 
the potential for enormous quantities of gas stored as gas 
hydrates. The mean (expected value) in-place gas hydrate 
resource for the entire United States is estimated to be 
320,000 trillion cubic feet of gas. This assessment does not 
address the problem of gas hydrate recoverability.
    Seismic-acoustic imaging to identify gas hydrate and its 
effects on sediment stability has been an important part of 
USGS marine studies since 1990. USGS has also conducted 
extensive geochemical surveys and established a specialized 
laboratory facility to study the formation and disassociation 
of gas hydrate in nature and also under simulated deep-sea 
conditions. Gas hydrate distribution in Arctic wells and in the 
deep sea has been studied intensively using geophysical well 
logs. These efforts have also involved core drilling of gas-
hydrate-bearing sediments in cooperation with the Ocean 
Drilling Program (ODP) of the National Science Foundation, and, 
most recently a cooperative drilling program onshore in 
northern Canada.

III. Gas Hydrate Production

    Gas recovery from hydrates is hindered because the gas is 
in a solid form and because hydrates are usually widely 
dispersed in hostile Arctic and deep marine environments. 
Proposed methods of gas recovery from hydrates usually deal 
with disassociating or ``melting'' in-situ gas hydrates by (1) 
heating the reservoir beyond the temperature of hydrate 
formation, (2) decreasing the reservoir pressure below hydrate 
equilibrium, or (3) injecting an inhibitor, such as methanol, 
into the reservoir to decrease hydrate stability conditions. 
Computer models have been developed to evaluate hydrate gas 
production from hot water and steam injection, and these models 
suggest that gas can be produced from hydrates at sufficient 
rates to make gas hydrates a technically recoverable resource. 
Similarly, the use of gas hydrate inhibitors in the production 
of gas from hydrates has been shown to be technically feasible, 
however, the use of large volumes of chemicals comes with a 
high economic and potential environmental cost. Among the 
various techniques for production of natural gas from in-situ 
gas hydrates, the most economically promising method is 
considered to be depressurization. The Messoyakha gas field in 
northern Russia is often used as an example of a hydrocarbon 
accumulation from which gas has been produced from hydrates by 
simple reservoir depressurization. Moreover the production 
history of the Messoyakha field possibly demonstrates that gas 
hydrates are an immediate producible source of natural gas and 
that production can be started and maintained by 
``conventional'' methods.

IV. Safety and Seafloor Stability

    Seafloor stability and safety are two important issues 
related to gas hydrates. Seafloor stability refers to the 
susceptibility of the seafloor to collapse and slide as the 
result of gas hydrate disassociation. The safety issue refers 
to petroleum drilling and production hazards that may occur in 
association with gas hydrates in both offshore and onshore 
environments.

Seafloor Stability

    Along most ocean margins the depth to the base of the gas 
hydrate stability zone becomes shallower as water depth 
decreases; the base of the stability zone intersects the 
seafloor at about 500 m. It is possible that both natural and 
human induced changes can contribute to in-situ gas hydrate 
destabilization which may convert a hydrate-bearing sediment to 
a gassy water-rich fluid, triggering seafloor subsidence and 
catastrophic landslides. Evidence implicating gas hydrates in 
triggering seafloor landslides has been found along the 
Atlantic Ocean margin of the United States. The mechanisms 
controlling gas hydrate induced seafloor subsidence and 
landslides are not well known, however these processes may 
release large volumes of methane to the Earth's oceans and 
atmosphere.

Safety

    Throughout the world, oil and gas drilling is moving into 
regions where safety problems related to gas hydrates may be 
anticipated. Oil and gas operators have described numerous 
drilling and production problems attributed to the presence of 
gas hydrates, including uncontrolled gas releases during 
drilling, collapse of wellbore casings, and gas leakage to the 
surface. In the marine environment, gas leakage to the surface 
around the outside of the wellbore casing may result in local 
seafloor subsidence and the loss of support for foundations of 
drilling platforms. These problems are generally caused by the 
disassociation of gas hydrate due to heating by either warm 
drilling fluids or from the production of hot hydrocarbons from 
depth during conventional oil and gas production. The same 
problems of destabilized gas hydrates by warming and loss of 
seafloor support may also affect subsea pipelines.

V. Conclusions

    Our knowledge of naturally occurring gas hydrates is 
limited. Nevertheless, a growing body of evidence suggests that 
(1) a huge volume of natural gas is stored in gas hydrates, (2) 
production of natural gas from gas hydrates may be technically 
feasible, (3) gas hydrates hold the potential for natural 
hazards associated with seafloor stability and release of 
methane to the oceans and atmosphere, and (4) gas hydrates 
disturbed during drilling and petroleum production pose a 
potential safety problem. The USGS welcomes the opportunity to 
collaborate with domestic and international scientific 
organizations to further our collective understanding of these 
important geologic materials.

    Mr. Walden. [presiding] Thank you, Dr. Collett.
    Dr. Haq.

STATEMENT OF BILAL U. HAQ, DIVISION OF OCEAN SCIENCES, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Haq. Thank you, Mr. Chairman, for giving me the 
opportunity to present the Subcommittee the outline of the 
state of our knowledge on natural gas hydrates.
    I have submitted a formal statement that I would like to be 
made a part of the record.
    For several decades, we have known gas hydrates exist 
within the sediments of the continental slope and in the 
permafrost on land. While it was only during the last decade 
that the pace of research has picked up, and especially in the 
last three or four years. Research efforts in several countries 
had been focused at learning more about the viability of gas 
hydrate as an energy resource. In addition, their role in slope 
instability and global climate change is also of considerable 
interest to the research community and has obvious societal 
relevance.
    In marine sediments, hydrates are commonly detected 
remotely by the presence of acoustic reflectors known as 
``bottom simulating reflectors'' or ``BSR's.'' Now, BSR's are 
known from many continental margins of the world, but hydrates 
have only been rarely sampled through drilling. This lack of 
direct sampling means that estimating the volumes of methane 
trapped in the hydrates and the free gas below the hydrate 
remain largely speculative.
    One of the few places in the world where hydrates have been 
drilled and directly sampled is on the Blake Ridge, a 
topographic feature off the coast of the Carolinas, Georgia, 
and Florida. Here it was observed that the BSR is present only 
where there is a significant amount of free gas below the 
hydrate zone, whereas hydrate was present even where there was 
no BSR. Thus, if our estimates are calculated purely on the 
basis of observed BSR's, it may lead to underestimation of the 
lateral extent of the hydrate fields and the total volume of 
the contained methane.
    At present, even the relatively conservative estimates 
contemplate as much methane in hydrates as double the amount of 
oil and known fossil fuels. Whether or not these large 
estimates can be translated into viable energy resource is a 
crucial question that has been the focus of researchers in many 
countries in the world.
    Scientists theorize that when large slumps that occur when 
gas hydrates disassociate on the continental slope, they can 
release large amounts of methane into the atmosphere triggering 
greenhouse warming over the longer term.
    Of more immediate concern, however, is the response of the 
methane trapped in the permafrost hydrates. If the summer 
temperatures in the higher latitudes were to rise by even a few 
degrees, it could lead to increased emission of methane from 
the permafrost, thereby adding to the greenhouse effect and 
further raising global temperature. The actual response of both 
the permafrost and the ice fields on Greenland and Antarctica 
to the global warming remains largely unknown at the present 
time due to lack of research in this area.
    Although the hydrocarbon industry has had a longstanding 
interest in the hydrates, but they have been slow to respond to 
the need of gas hydrate research as an energy resource. This 
stems from several factors. Many of the industry believe that 
the widely cited large estimates of methane in gas hydrates on 
the continental margins may be overstated. Moreover, if this 
hydrate is thinly dispersed in the sediment, rather than 
concentrated, it may not be easily recoverable and, thus, not 
cost effective.
    And now, some of our research needs in this area. Much of 
the uncertainty concerning the value of hydrate as a resource 
for the future, their role in slope instability and climate 
change stems from the fact that we know very little about the 
nature of the gas hydrate reservoir. Understanding the 
characteristics of the reservoir, finding ways to image and 
evaluate its contents remotely may be the two most important 
challenges in gas hydrate R&D for the near future.
    We need to know where exactly on land and on the sea floor 
gas hydrates occur, and how extensive is their distribution. We 
need to be able to discern how they are distributed. Are they 
distributed mostly thinly dispersed in sediments or in 
substantial local concentration? Only then will we be able to 
come up with a meaningful estimate of their national and global 
distribution.
    We also need a better understanding of how hydrates form 
and how they get to where they are stabilized. This means 
learning more about the biological activity and organic matter 
decay that generates the methane gas for the hydrates, their 
plumbing system, migration pathways, and hydrate 
thermodynamics. To understand the role of gas hydrates in slope 
instability, research will be needed into their physical 
properties and their response to changes in pressure 
temperature regimes.
    To appreciate their role in global climate change, we need 
to have a better grasp of how much of the hydrates on the ocean 
margins and in the permafrost is actually susceptible to 
oceanic and atmospheric temperature fluctuations. More 
importantly, we must understand the fate of the methane 
released from a hydrate source into the water column and the 
atmosphere.
    Once the efficacy of natural gas hydrates as a resource 
have been ascertained, new technologies will be needed to 
develop for their meaningful exploitation. This includes new 
techniques for detection, drilling, and recovery of solid 
hydrate and free gas below. Such technologies are lacking at 
the present time.
    Mr. Chairman, once again, thank you very much for providing 
me the opportunity to testify. And I will be happy to answer 
any questions that I am able.
    [The prepared statement of Dr. Haq follows:]

Statement of Bilal U. Haq, Division of Ocean Sciences, National Science 
                               Foundation

    Thank you, Madam Chairman and members of the Subcommittee 
for giving me the opportunity to present an outline of the 
state of our knowledge of natural gas hydrates and the future 
research needs in this area.
    Natural gas hydrates have been known to exist within the 
continental margin sediments for several decades now, however, 
it is only during the last decade that the pace of research 
into their distribution and nature has picked up, and 
especially in the last three or four years. The research effort 
in several countries has been focused at learning more about 
their efficacy as an alternative energy resource. In addition, 
their role in slope instability and global climate change is 
also of considerable interest to the research community and has 
obvious societal relevance.
    Gas hydrates consist of a mixture of methane and water and 
are frozen in place in marine sediments on the continental 
slope and rise. To be stable the hydrates require high pressure 
and low bottom temperature and thus they occur mostly at the 
depths of the continental slope (generally below 1,500 feet 
depth). Due to the very low temperatures in the Arctic, 
hydrates also occur on land associated with permafrost, and at 
shallower submarine depths of about 600 feet. Methane gas that 
forms the hydrate is mostly derived from the decay of organic 
material trapped in the sediments.
    Methane is a clean burning fuel. Because the methane 
molecule contains more hydrogen atoms for every carbon atom, 
its ignition produces less carbon dioxide than other, heavier, 
hydrocarbons. In addition, the hydrate concentrates 160 times 
more methane in the same space as free gas at atmospheric 
pressure at sea level. Thus, natural gas hydrates are 
considered by many to represent an immense, environmentally 
friendly, and viable, though as yet unproven resource of 
methane.
    In marine sediments, hydrates are commonly detected by the 
presence of acoustic reflectors, know as bottom simulating 
reflectors, or BSRs. However, to produce a boundary that 
reflects acoustic energy, a significant quantity of free gas 
needs to be present below the hydrate to induce the contrast 
that causes the reflector. BSRs are known from many continental 
margins of the world, but hydrates have only rarely been 
sampled through drilling. Moreover, the presence or absence of 
BSR does not always correlate with the presence of hydrate nor 
provide information about the quantity of hydrate present. The 
general lack of direct sampling means that estimating the 
volumes of methane trapped in hydrates, or the associated free 
gas beneath the hydrate stability zone, remain largely 
speculative.
    One of the few places in the world where hydrates have been 
drilled and directly sampled is on the Blake Ridge, a 
topographic feature off the coast of the Carolinas, Georgia and 
Florida. Here it was observed that the BSR is present only 
where there is significant amount of free gas below the 
hydrate, whereas hydrate was present even where there was no 
BSR recorded on acoustic profiles. Thus, if our estimates are 
calculated purely on the basis of observed BSRs, it may lead to 
underestimation of the lateral extent of the hydrate fields and 
the total volume of the contained methane.
    Estimates of how much methane might be trapped in the 
hydrates in the nearshore sediments therefore remain 
conjectural at the present, but even the relatively 
conservative estimates contemplate as much as double the amount 
of all known fossil fuel sources. Whether or not these large 
estimates can be translated into a viable energy resource is a 
crucial question that has been the focus of researchers in many 
countries. In the past petroleum industry in the U.S. and 
elsewhere has been less interested in methane hydrates as a 
resource because of the difficulties in estimating and 
extracting the gas and distributing it to consumers as a cost-
effective resource.
    Since gas hydrates in marine sediments largely occur on the 
continental slope, they may also be implicated in massive 
slumps and slides when hydrates break down due to increased 
bottom temperature or reduced hydrostatic pressure. Local earth 
tremors may also cause hydrates to slump along zones of 
weakness. When a hydrate dissociates, its bottom layer changes 
from solid ``icy'' substance to a ``slushy'' mixture of 
sediment, water and gas. This change in the mechanical strength 
of the hydrate occurs first near the base because the 
temperature in the sediment increases with depth and thus the 
bottom part of the hydrate stability zone is most vulnerable to 
subtle changes in temperature and pressure. This encourages 
massive slope failure along low-angle detachment faults. Such 
slumps can be a considerable hazard to petroleum exploration 
structures such as drilling rigs and to undersea cables. In 
addition, extensive slope failures can conceivably release 
large amounts of methane gas into the seawater and atmosphere.
    Scientists studying the recent geological past theorize 
that gas-hydrate dissociation during the last glacial period 
(some 18,000 years ago) may have been responsible for the rapid 
termination of the glacial episode. During the glacial period 
the sea level fell by more than 300 feet, which lowered the 
hydrostatic pressure, leading to massive slumping that may have 
liberated significant amount of methane. Methane being a potent 
greenhouse gas (considered to be ten times as potent as carbon 
dioxide by weight), a large release from hydrate sources could 
have triggered greenhouse warming. As the frequency of slumping 
and methane release increased, a threshold was eventually 
reached where ice melting began, leading to a rapid 
deglaciation.
    At present, however, the response of the methane trapped in 
the permafrost as hydrate is of greater concern. If the summer 
temperatures in the higher latitudes were to rise by even a few 
degrees, it could lead to increased emission of methane from 
the permafrost, thereby adding to the greenhouse effect and 
further raising the global temperatures. These increases in 
global mean temperature may also lead to further melting of 
high-latitude ice fields on Greenland and Antarctica. The 
response of both the permafrost and the ice fields to increased 
temperature, however, remains largely unknown at the present 
time.
    Direct measurements of methane in hydrated sediments and 
the free gas below made during drilling on the Blake Ridge by 
the Ocean Drilling Program, supported largely by the National 
Science Foundation, show that large quantities of methane may 
be stored in this gas-hydrate field, and even more as free gas 
below the hydrate. In the hydrate stability zone the volume of 
the gas hydrate based on direct measurements was estimated to 
be between 5 percent and 9 percent of the pore space. Though 
the hydrate occurs mostly finely disseminated in the sediment, 
relatively pure hydrate bodies up to 30 cm thick also occur 
intermittently. Below the hydrate stability pore spaces are 
saturated with free gas. From the point of view of 
recoverability, the free gas below the hydrate stability zone, 
if it occurs in sufficient quantities, could be recovered 
first. Eventually, the gas hydrate may itself be dissociated 
artificially and recovered through injection of hot water or 
through depressurization.
    Although the hydrocarbon industry has had a long-standing 
interest in hydrates (largely because of their nuisance value 
in clogging up gas pipelines in colder high latitudes and in 
seafloor instability for rig structures), their slowness in 
responding to the need for gas-hydrate research as an energy 
resource stems from several factors. Many in the industry 
believe that the widely cited large estimates of methane in gas 
hydrates on the continental margins may be overstated. 
Moreover, if the hydrate is thinly dispersed in the sediment 
rather than concentrated, it may not be easily recoverable, and 
thus not cost-effective to exploit.
    One suggested scenario for the exploitation of such a 
dispersed resource is excavation, which is environmentally a 
less acceptable option than drilling. And finally, if 
recovering methane from hydrate becomes feasible, it may have 
important implications for slope stability. Since most hydrates 
occur on the continental slope, extracting the hydrate or 
recovering the free gas below the stability zone could cause 
slope instabilities of major proportions that may not be 
acceptable to coastal communities. Producing gas from gas 
hydrates locked up in the permafrost has so far met with 
considerable difficulties, as the Russian efforts to do so in 
Siberia in the 1960s and 70s would imply.
    The occurrence and stability of gas hydrates at oceanic 
depths of the slope and rise has also led to the notion that we 
may be able dispose off excess green-house gases, especially 
carbon dioxide, in the deep ocean as artificial hydrates. 
Although permanent sequestration of carbon dioxide may not be 
realistic since the hydrate on the seafloor would eventually be 
dissolved and dispersed in seawater, the isolation of carbon 
dioxide in the form of solid hydrate that remains stable for 
relatively long periods of time may be plausible. The long time 
scales of ocean circulation, the large size of the oceanic 
reservoir and the buffering effect of carbonate sediments all 
speak in favor of this potentiality. These notions, however, 
need considerable measure of research, both in the laboratory 
and the field, before they can be regarded as practical.

Research Needs

    Much of the uncertainty concerning the value of gas 
hydrates as a resource for the future, their role in slope 
instability and their potential as agents for future climate 
change, stems from the fact that we have little knowledge of 
the nature of the gas-hydrate reservoir. Understanding the 
characteristics of the reservoir and finding ways to image and 
evaluate its contents remotely may be the two most important 
challenges in gas-hydrate R & D for the near future.
    We need to know where on land and the continental margins 
gas hydrates occur and how extensive is their distribution? We 
need to be able to discern how they are distributed, mostly 
thinly dispersed in sediments or in substantial local 
concentrations. Only then will we be able to come up with 
meaningful estimates of their total volume on the U.S. 
continental margins and in higher latitudes, as well their 
global distribution.
    We also need a better understanding of how hydrates form 
and how they get to where they are stabilized. This effort 
encompasses learning more about the biological activity and 
organic-matter decay that generates methane for hydrates, their 
plumbing systems, migration pathways and the hydrate 
thermodynamics, and it will require laboratory experimentation, 
field observations and modeling.
    To understand the role of gas hydrates in slope 
instability, research will be needed to learn more about their 
physical properties and their response to changes in pressure-
temperature regimes. Both laboratory experimentation and invitu 
monitoring will be necessary. Gas hydrates in the Arctic, Gulf 
of Mexico and off the U.S. East Coast represent extensive 
natural laboratories for all aspects of gas hydrate research.
    To appreciate the role of gas hydrates in global climate 
change, we need to have a better grasp of how much of the 
hydrate in the continental margins and the permafrost is 
actually susceptible to oceanic and atmospheric temperature 
fluctuations. More importantly, we must understand the fate of 
the methane released from a hydrate source into the water 
column and the atmosphere. Studies of the geological records of 
past hydrate fields can also provide clues to their behavior 
and role in climate change.
    Once the efficacy of natural gas hydrate as a resource has 
been proven, new technologies will have to be developed for 
their meaningful exploitation. This includes new methodologies 
for detection, drilling, and recovery of the solid hydrate and 
the free gas below. Such technologies are lacking at the 
present time.
    Madam Chairman, once again thank you for giving me the 
opportunity to testify and I will be happy to answer any 
questions from the members of the Subcommittee that I am able 
to.

    Mr. Walden. Thank you, Mr. Haq; I appreciate your 
testimony.
    I might start with some questions for Mr. Kripowicz. Thank 
you for outlining the Department of Energy's role as the 
programmatic lead for a Federal R&D program for methane 
hydrates.
    I realize both the House and the Senate bill put the 
Secretary of Energy in the driver's seat for steering the 
appropriated dollars to fulfill the program's goals. Perhaps 
DOE is the logical home for it. However, I am concerned that 
while both bills contemplate involvement by the USGS, National 
Science Foundation, and Office of Naval Research, neither bill 
requires the Secretary to establish the advisory panel made up 
of representatives from those agencies and academia. Nor does 
the Secretary have to listen to them if he does create the 
panel.
    Given the inevitable squeeze under the budget caps agreed 
to by President Clinton in 1997, it is fair to believe that DOE 
may try to keep appropriated dollars in-house for the Federal 
Energy Technology Center or the national labs.
    What assurances can you give the Subcommittee that the USGS 
and the marine minerals research institutions under our 
jurisdiction will be given a meaningful place at the table?
    Mr. Kripowicz. Mr. Chairman, the assurance that I can give 
you is that we have been working cooperatively with those 
organizations from the very beginning on this program.
    At the outset, before legislation was contemplated, we 
believed that we needed to get buy-in from all of the other 
organizations that had an interest in methane hydrates in order 
to present a rational program.
    And the way we have also set up the potential organization 
is that we will have a management steering committee which 
includes, not only the Department of Energy, but the USGS and 
the National Science Foundation, MMS, NRL, the Ocean Drilling 
Program, and several industrial organizations.
    And we have worked through the original strategy document 
and the beginnings of the program plan in close cooperation 
with these organizations and have provided a tremendous amount 
of interplay and public comment on our plans in this area.
    Mr. Walden. Okay. Given the concerns the panelists have 
stated about disassociation of gas hydrates on the continental 
slope, leading to instability of drilling environments, do you 
believe the Minerals Management Service, which regulates 
drilling operations on the outer-continental shelf, should be 
programmatically involved, either directly or via the Center 
for Marine Research and Environmental Technology at the 
University of Mississippi, which is one of the centers 
established by Public Law 104-325, out of this Subcommittee?
    Mr. Kripowicz. Yes, sir. MMS is one of the people that is 
on the Management Steering Committee, and we have a working 
relationship with MMS and would expect them to be closely 
involved in this research, including possibly some of their own 
funding, as well as funding from this money.
    Mr. Walden. Okay.
    And our full Committee chairman is interested in this 
program, in part, because of the potential to bring gas to 
remote native villages in the Arctic which are starved for 
affordable fuels.
    Will DOE ensure that gas hydrate studies in permafrost 
regions be given an equal place at the research table?
    Mr. Kripowicz. Yes, sir. As a matter of fact, probably the 
first experiments--production experiments--would mostly likely 
be in permafrost areas because there would be cheaper areas in 
which to drill to establish the characteristics of the resource 
and get the background information needed to decide whether it 
can actually be made into a recoverable reserve. So we would 
expect, you know, a lot of work to go on in the Arctic and 
permafrost regions.
    Mr. Walden. Okay.
    H.R. 1753 prescribes that the Secretary of Energy create an 
advisory committee that would solicit proposals for hydrate 
research which would then undergo a peer review process.
    Would the peer review process be enlisted for the review of 
individual research proposals submitted to the program, or only 
with respect to the entire gas hydrate program, in general? And 
could you explain to me how you expect this process to operate?
    Mr. Kripowicz. We would assume that there would be more 
than one way to allocate the funding. For example, research 
within the government, that portion of it would be determined 
by the steering committee on it which most of the agencies sit. 
Then for universities and for industry, there would be an 
allocation of money which would be available on a competitive 
peer-reviewed basis.
    Mr. Walden. Testimony from Dr. Woolsey on the next panel 
implies the administration is pledging more support to this 
effort than was outlined in the President's Science Advisors' 
report several years ago.
    Is the Department of Energy satisfied that a viable R&D 
program for the methane hydrates can be performed under the 
authorization caps in H.R. 1753?
    Mr. Kripowicz. Yes, sir. The cap for Fiscal Year 2000 is $5 
million; our budget request is $2 million. And the cap for the 
succeeding years is $10 million. And what I have testified to 
previously is that it is clear, that in a long-term program, 
you need more than $2 million a year. The $2 million is a 
starting figure to establish the program, but in future years, 
a program of substantial size would be needed in order to 
finally get to a decision as to whether this is a producible 
reserve. And the numbers of $10 million appear to be a 
reasonable figure, although as you get further into the 
program, it may or may not be true. But we, at this point, feel 
we can live with those allocations.
    Mr. Walden. All right. Thank you.
    Turn now to Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman.
    This is a question that is related to the length of time 
that we are imagining, or we are perhaps projecting it would 
take to actually--and this question is for any one of the 
panelists. What is the anticipated timeline that actually we 
would see the technology available, that would actually be able 
to access and produce gas from these methane hydrates?
    Mr. Kripowicz. I would say that that is probably a very 
fuzzy date, but we would believe that if you financed the 
program at somewhere near the $10-million range over a 
considerable period of time, that no sooner than the year 2010, 
I think you could identify whether this is really an 
exploitable resource. So it is a long-term program.
    Mr. Underwood. Okay. Would the other two members of the 
panel agree with that?
    Dr. Collett. From our perspective, a part of our program is 
very focused on the Alaska accumulations onshore in the oil and 
gas areas. Hydrates there are drilled almost on a daily basis 
in the field areas, and this is an area where we are proceeding 
with cooperative work with industry to actually develop tests 
of hydrate accumulations, for the main purpose of engineering 
reservoir maintenance of conventional reservoirs and, 
ultimately, to feed maybe a gas-to-liquids program or LNG-type 
program. So what we perceive is within a five-year timeframe, 
we will see a very significant test with industry components on 
the North Slope of Alaska where the interstructure is already 
present.
    I would certainly agree with Mr. Kripowicz, in that for 
longer-term, large-scale production, we are at least looking 10 
to 15 years out. And even in that situation, it will be in 
isolated areas with very specific motivations to go after the 
resource.
    Mr. Underwood. Dr. Haq?
    Dr. Haq. I don't have anything to add to that.
    Mr. Underwood. Okay.
    In terms of, then, we are really anticipating that the 
government will invest about $100 million in this enterprise 
before we see it actually bear fruit.
    How much is that going to--well how much do you think 
private industry is going to be putting into this? Is there a 
sense of how much private industry will be putting into this 
during this timeframe?
    Mr. Kripowicz. Mr. Underwood, as you get closer toward 
really showing that this is a producible resource, you will get 
more and more industrial participation. At the very beginning 
of this, I would expect that you would get some industrial 
participation, but not a great deal. You might particularly get 
participation in areas that affect safety because that effects 
existing and planned operations on the industrial sites that we 
would expect to see, you know, more participation by industry 
there than you would in some of the other areas.
    But as a general rule, in our research, when you actually 
get to the demonstration phases of technology, you talk about 
at least 50 percent cost-sharing from the industry, but I don't 
believe you would see that kind of cost-sharing for some time 
in this area.
    Mr. Underwood. Okay. I understand that the deep seabed 
mining, that the technology--what is the connection between the 
technology that would be used to actually begin deep seabed 
mining and actually access some of the methane hydrates that 
are on the ocean floor?
    I understand that the Japanese are planning to dril 
somewhere in the Nanki Trough later on this year. What is the 
ostensible connection between the technology used for this 
purpose and deep seabed mining? And where are we, as a country, 
in relationship to that technology, as compared to Japan?
    Mr. Kripowicz. I can't speak to that in any detail except 
to say that we, on very preliminary looks at this, would say 
that deep seabed methods would probably be among the most 
expensive way to recover a diverse resource like methane 
hydrates.
    Dr. Collett. From our perspective, we come with a 
cooperative relationship that is five years old now with the 
Japanese National Oil Company and the Geological Survey of 
Canada, in which we actually conducted a drilling program with 
the Geological Survey of Canada in Canada to look at the 
producibility of Arctic gas hydrates. Just last year, we 
completed a well in Canada.
    Our experience, and I think we have good insight into the 
Japanese program, we are mainly looking at conventional-style 
borehole production associated with conventional methods. We 
would perceive most of the production methodology would 
probably evolve initially out of conventional oil and gas 
production technology. But mining is one of the proposed and 
perceived methods to look at hydrates, mainly for reasons such 
as the in the Gulf of Mexico, hydrates occur right at the sea 
floor, so you have this opportunity.
    But most certainly, the technology is evolutionary. We are 
only venturing into those water depths in the last five years, 
so the type of technology we are discussing now is on the 
cutting edge.
    Mr. Underwood. I am just, you know, thinking out loud 
because I am trying to get a sense of how the two intersect. 
And then, also, in addition, we are not really participants of 
the law of the sea. And in the meantime, there is a lot of this 
kind of activity will occur in the ocean floor. And it seems to 
me that while we are moving ahead in one sense, in terms of 
developing and encouraging the science which would lead to 
accessing this source of energy, the policy-end of it, in terms 
of participation in the law of the sea, and also the 
technological end of it.
    And from what I understand--and I could be mistaken; I 
could be not fully informed--I have gotten the sense that the 
Japanese are proceeding with all deliberate speed, in terms of 
their own technology for deep seabed mining. And that is, 
obviously, a source of concern for people I represent, and I 
think people who anticipate that there may be this mineral 
source as well as this energy source nearby.
    Dr. Collett. When we look, particularly, at this issue from 
the U.S. perspective, what our group is largely responsible for 
in the USGS is the assessment of oil and gas resources and 
hydrate assessment is limited to the exclusive economic zone of 
the U.S. That is an EEZ assessment, so our gas hydrate 
assessment numbers are limited to that. So there is one issue 
about law and mineral rights that are very clear.
    But most certainly, when we look at it, for the lack of a 
better term, a competitive sense, the Japanese are investing a 
large sum of money. They have motivations to do that because 
they import most of their hydrocarbon resources. Ninety five 
percent of their resources are imported. So their commitment to 
this has been historically much greater.
    And what we are seeing now in the world that the technology 
may be catching up to the point to start exploiting some of 
these resources.
    Mr. Underwood. Okay. We will have to deal with the policy 
issue----
    Dr. Collett. Yes.
    Mr. Underwood. [continuing] to remaining of whether the EEZ 
resources belong to the territories or to the Federal 
Government.
    Dr. Collett. Yes.
    [Laughter.]
    Mr. Underwood. Thank you.
    Dr. Collett. We will go with it.
    Mr. Walden. I want to go back to Mr. Kripowicz.
    I understand that methane hydrates may occur off the Oregon 
Coast. Would there be an opportunity for the University of 
Oregon or OSU, Oregon State University, to be involved in some 
of the research there and get grants from DOE for the program?
    Mr. Kripowicz. Yes, sir. As a matter of fact, Oregon State 
University has participated in the workshops that we have had 
in establishing this program, and I believe has done some 
methane hydrates research, and is doing some right now.
    Mr. Walden. Okay.
    Dr. Collett. Excuse me.
    Mr. Walden. Yes; go ahead.
    Dr. Collett. They have played a leading role. Particularly, 
with a cooperative research relationship with the Geological 
Survey of Germany, a number of research cruises have been led 
by Oregon State, which dealt with sampling gas hydrates 
offshore of Oregon. It is one of the more established hydrate 
sites, and, also, it was the focus of a dedicated leg of the 
Ocean Drilling Program, under NSF, Leg 146.
    So that margin, the Oregon coastal area, is often looked at 
as one of the critical experimental areas.
    And there are also proposals at present in ODP to actually 
go back to the Oregon coast.
    Mr. Walden. Okay.
    Yes?
    Dr. Haq. I was just going to add to that----
    Mr. Walden. Dr. Haq?
    Dr. Haq. [continuing] that NSF has--that is, the Division 
of Ocean Sciences at NSF has just committed to fund a cruise 
led by Oregon scientists to the tune of about $600,000 to image 
the hydrates, as well as to sample the hydrates with a newly-
developed sea floor coring system. That is essentially----
    Mr. Walden. Okay.
    Dr. Haq. [continuing] going to be funded in this fiscal 
year.
    Mr. Walden. Okay.
    Let me go back to you. What is the status of current 
geologic models and understanding in predicting the occurrence 
of hydrate deposits?
    Status of the current models in predicting deposits? 
Either?
    Dr. Collett. I can reflect back to 1995; in that when we 
conducted the assessment, the U.S. gas hydrate resource 
assessment was based on a play model concept where we risked 18 
geologic factors that control the occurrence the hydrates--the 
availability of gas, water, and migration of fluids.
    We actually went systematically through all of the 
continental margins in the U.S. and did a scientific review of 
the favorability of these factors leading to the accumulation 
of hydrates. So, basically, that is the model. We assume we 
understand how hydrates occur.
    The problem with our model, however, is the lack of direct 
information about known accumulations. Other than the Blake 
Ridge accumulation on the Atlantic margin of the U.S., limited 
seismic inferred gas hydrates on the Cascadia margin, and on 
the North Slope of Alaska, we still know very little about any 
detailed aspects of hydrate accumulations.
    So to understand the accumulation of gas hydrate before we 
can project it into a model for gas formation is a very 
difficult step, but really the basic research hasn't been done.
    Mr. Walden. Okay.
    Dr. Haq, am I correct to understand the National Science 
Foundation receives Federal appropriation in its own right for 
peer-reviewed research grants to academia in many subject 
matter areas, including methane hydrate research?
    Dr. Haq. Yes. The funding, of course, is extremely 
competitive, and it is entirely based on the best science, 
which has to be not only competitive, but also cost effective. 
And the community has to agree that, yes, this is their high 
priority. At this time, gas hydrates are being funded because 
of that reason, because it is a issue that is high priority for 
the community. And it is also of great scientific value and, 
therefore, there have been several proposals that have been 
funded very competitively.
    Mr. Walden. How would the centralization of the Federal R&D 
for methane hydrate at the Department of Energy affect the 
National Science Foundation?
    And do you envision that the peer review contemplated in 
H.R. 1753 will allow NSF's grant proposals process to continue 
to function as they always have?
    Dr. Haq. NSF will continue to fund proposals in gas 
hydrates, as long as they are competitive, and as long as the 
funds are available. But there are no separate earmarked funds 
for gas-hydrate research at NSF.
    One of the effects of DOE funding would be that since we 
can only fund limited number of projects, the academic 
community will have another source of funding and, therefore, I 
think--collaboration between DOE and NSF could actually get you 
better bang for the bucks, so to speak, if that were to happen.
    Mr. Walden. Okay.
    I just have two other questions for Dr. Collett.
    What area of the United States, for example, the coastal 
waters off the Atlantic coast or the Gulf of Mexico, or onshore 
in the North Slope of Alaska would be the most profitable--or 
probable candidate, I should say--for a pilot project to begin 
producing natural gas from hydrates?
    Where do you think are the most probable?
    Dr. Collett. We feel very strongly about the fact it would 
be the North Slope of Alaska, particularly the areas in the 
western part of the Prudhoe Bay oil field region.
    The reason for this is that it is, one, an area of the most 
highly concentrated hydrate accumulations in the world, so it 
gives you the ability to focus on a sweet spot of hydrate 
accumulation.
    You also have existing industry activity, these are 
accumulations that are drilled for deeper targets on a regular 
basis. So you have a catalyst of already in-place resources for 
the industry to use and to develop the hydrate resources.
    And also there is a direct need for gas that is not often 
spoke about on the North Slope, it is for existing reservoir 
maintenance of conventional reservoirs and producing of heavy 
oil; gas is a very important commodity on the North Slope 
without coming off the slope. So I would see these areas now to 
pose an immediate demand and synergy of events.
    Mr. Walden. Okay. I just have one other question for you.
    USGS Director Groat testified before this Committee earlier 
this year during the Budget Oversight hearing. The part of the 
USGS mission includes helping with the scientific needs of 
sister-DOI agencies. I believe the programmer initiative was 
called Integrated Science.
    Does the USGS have plans for a cooperative marine science 
initiatives with the MMS in regard to sub-sea slope stability 
and other marine geology problems related to methane resources 
and their exploitation?
    Dr. Collett. On the formal nature of where these agreements 
exist, I am not aware of. We can get back to you. But in the 
practical sense, we are already conducted relationships or 
joint cruises with the University of Mississippi--what may come 
up later in the testimony today.
    We have also looked at the opportunities of working with 
MMS. We have been approached by individuals such as Jesse Hunt 
involved with the Gulf of Mexico safety panels of MMS.
    So we see a number of opportunities, but most of them have 
not been formalized.
    Mr. Walden. At this point, we are going to go ahead--Mr. 
Underwood has no further questions nor do I, so we will excuse 
this panel and then we will recess until we are done voting, 
which is probably 20 minutes, and then we will resume with 
panel two.
    So the Committee will stand in recess.
    [Recess.]
    Mr. Walden. Okay, if we could come back to--if we could 
come back to order. And if the staff is ready, I will reconvene 
the hearing.
    And I will just tell the witnesses in advance that we are 
having a number of amendments on the House floor, which we 
anticipate will interrupt our business, probably well into the 
night, every 15 minutes. So, having said that, we will try and 
proceed as orderly as we can.
    And I would like to welcome Dr. Trent, the dean of School 
of Mineral Engineering, University of Alaska Fairbanks, and I 
would tell you as a--ahead of your testimony, I am probably the 
only other one in this room who ever attended the University of 
Alaska Fairbanks, and I did so my freshman year in college, 
so--oh, there is somebody else in the back.
    [Laughter.]
    Two, I know. Three--and another one.
    [Laughter.]
    Here we are. I can't sing the song, but I lived in Moore 
Hall.
    [Laughter.]
    Yes, we got half the student body.
    Welcome; good afternoon.

  STATEMENT OF ROBERT H. TRENT, P.E., PH.D., DEAN, SCHOOL OF 
      MINERAL ENGINEERING, UNIVERSITY OF ALASKA FAIRBANKS

    Dr. Trent. Thank you, Mr. Chairman.
    First of all, I would like to explain my attire. In Alaska 
we call it ``na-nuk,'' and today it is courtesy of Northwest 
Airlines giving my luggage extra frequent flier miles 
somewhere.
    [Laughter.]
    Mr. Walden. Not a problem.
    Dr. Trent. I will keep mine short. I will not speak to the 
trillions of cubic feet of gas that is out there. I think we 
all know that.
    However, in Prudhoe Bay and Kuparuk River fields, it is 
pretty well proven that there is approximately 35 to 45 
trillion cubic feet of gas in those fields, one of the largest 
accumulations in the world. Also, our permafrost gas hydrates 
are in higher concentrations and have excellent quality.
    We are working closely with two of the oil companies at 
this time, developing new cementing methods for bonding casing 
through permafrost gas hydrates. As noted previously, one of 
the advantages of the Alaska North Slope is the infrastructure 
that is available with the oil companies in there. In fact, 
Japan Oil Corporation, it was there first choice to drill the 
well that they did eventually put on the McKenzie Delta. It 
wasn't the fact that we didn't have the infrastructure. It was 
the fact that it took the attorneys too long to get the job 
done.
    Another advantage to Alaska, particularly--well, all the 
northern areas, the circum polar northern areas--is that the 
availability of natural gas from hydrates will be very useful 
to the Native villages in developing other natural resources 
throughout the State, Siberia, and northern Canada.
    Energy in Alaska villages right now can be as high as 50 
cents per kilowatt hour. If we can develop a source of natural 
gas from hydrates, we could lower that considerably down, 
hopefully, even to the 5 cents per hour range. In addition, we 
can use it for home space heat, waste reformation, and, as a I 
say----
    [Laughter.]
    [continuing] the warehouse of minerals that we have in the 
north could be open with a source of natural energy.
    Thank you.
    [The prepared statement of Dr. Trent follows:]

   Statement of Robert H. Trent P.E., Ph.D., Dean, School of Mineral 
     Engineering, University of Alaska Fairbanks, Brooks Building, 
           University of Alaska Fairbanks, Fairbanks, Alaska

    This statement is respectfully submitted in support of H.R. 
1753 and S. 330. Recent studies have shown that gas hydrates 
are widespread along the coastline of the continental United 
States, onshore areas of Alaska and the possibly in deep marine 
environments of the Pacific Islands of the United States and 
other countries. The amount of gas in hydrate reservoirs of the 
United States greatly exceeds the volume of known conventional 
gas reserves. The gas hydrate accumulations in the area of the 
Prudhoe Bay and Kuparuk River oil fields in northern Alaska are 
best known and documented gas hydrate occurrences in the world. 
Recently completed domestic gas hydrate assessments suggest 
that the North Slope of Alaska may contain as much as 590 
trillion cubic feet of gas in hydrate form and the offshore 
areas of Alaska may contain an additional 168 trillion cubic 
feet of gas in hydrates. The Prudhoe Bay-Kuparuk River gas 
hydrate accumulation is estimated to contain approximately 35 
to 45 trillion cubic feet of gas, which is one of the largest 
gas accumulations in North America. Unlike most marine gas 
hydrate accumulations, such as those along the eastern 
continental margin of the United States or in the Gulf of 
Mexico, the permafrost associated gas hydrate accumulation in 
northern Alaska occur in high concentrations and are underlain 
by large conventional free-gas accumulations.
    The occurrence of concentrated gas hydrate accumulations 
and associated conventional free-gas accumulations are thought 
to be critical for the successful economic production of gas 
hydrates. An additional comparison reveals that onshore 
permafrost associated gas hydrates, relative to marine gas 
hydrate accumulations, often occur in higher quality reservoir 
rocks which should also contribute to the economic production 
of this vast energy resource. It should also be noted that the 
known gas hydrate accumulations in northern Alaska are found 
within an area of very active industry exploration and 
development operations. The existing oil and gas industry 
infrastructure in northern Alaska will certainly contribute to 
the eventual economic development of the North Slope gas 
hydrate resources. This infrastructure and known hydrate 
reserves were the reason that this area as the first choice for 
testing by the Japan National Oil Corporation last year. We 
believe that the cost of developing gas hydrate exploration and 
production technology will be considerably less on if developed 
on land rather than at sea.
    The first gas hydrate accumulations to be produced may have 
unique characteristics, such as location, that may make them 
technically and economically viable. For example, gas 
associated with conventional oil fields on the North Slope of 
Alaska is used to generate electricity in support of local 
field operations, for miscible gas floods, gas lift operations 
in producing oil wells and re-injected to maintain reservoir 
pressures in producing fields. In the future, gas may be used 
to generate steam that may be needed to produce the known vast 
quantities of heavy oil and more recently the production of a 
clean diesel fuel by gas to liquid conversion. Existing and 
emerging operational needs for natural gas on the North Slope 
are outpacing the discovery of new conventional resources and 
at least one of the operators in Alaska is looking at gas 
hydrates as a potential source of gas for field operations. The 
North Slope of Alaska contains vast, highly concentrated gas 
hydrate accumulations that may be exploited because of a unique 
local need for natural gas.
    In addition to the above, and even more important is the 
possibility of utilizing hydrate gas for space heat and the 
generation of energy in Alaska's Native villages. The current 
cost of electrical power in the villages in on an average of 
$0.50 per kilowatt hour. If hydrate gas can be produced it will 
be possible to utilize fuel cells or other power generating 
technology to reduce this cost while providing power that can 
be utilized for home space heat, waste reformation, mineral and 
other natural resource development. Rural Alaska is a vast 
warehouse of natural resources just waiting for an economical 
energy resource to make them viable. By developing natural 
resources, much needed jobs will be created.
    I urge the Committee to support H.R. 1753 and S 330, 
``Methane Hydrate Research and Development Act of 1999.''

    Mr. Walden. All right.
    Dr. Woolsey.

STATEMENT OF DR. J. ROBERT WOOLSEY, DIRECTOR, CENTER FOR MARINE 
   RESOURCES AND ENVIRONMENTAL TECHNOLOGY, CONTINENTAL SHELF 
              DIVISION, UNIVERSITY OF MISSISSIPPI

    Dr. Woolsey. Thank you, Mr. Chairman.
    We certainly appreciate the opportunity to be here, even on 
a busy and confused day as this. It certainly gives us an 
opportunity to present testimony on a subject that the three of 
us are very keen on.
    My two colleagues and I are part of the Center for Marine 
Resources and Environmental Technology. It is a program of 
applied academic endeavors and serves as an arm of the Minerals 
Management Service toward this extent. We have, together, 
worked on our own separate areas of interest, but collectively 
work as one, and we have enjoyed, you know, some very 
interesting programs amongst ourselves. We all have particular 
expertise that we can bring to bear on various problems that 
various of us have, within in our own areas.
    On the Gulf Coast now, we have been--in a way of 
background--we started working with several industries that 
were experiencing problems that were quite peculiar. At one 
time, gas hydrates were nothing more than a curiosity, but in 
the last 10 years plus, as the major oil companies have 
ventured out beyond 500 meters into the deep, deep water 
production, they have encountered a series of problems. And 
when we talk about the hazards that hydrates present, sometimes 
we take the simplistic use of the term in the occurrence of 
various amounts of hydrates that occur quite ubiquitously on 
the sea floor, within the hydrate stability zone, in water 
depths greater than 500 meters. And these can be readily 
determined with conventional technology--sidescan-sonar and the 
like.
    But the real problem--or the greater problem--is the more 
subtle occurrence that hydrates present when they are buried at 
some depth between what appears--or under what appears to be 
unstable sediments. And the problem becomes more confused when 
you understand that industry, in their reporting of any types 
of problems with sea floor stability, they usually use a 
terminology that is descriptive. In other words, you will hear 
things like ``shallow flows,'' referring to the flow of sand 
under pressure. And this may or may not be related to gas 
hydrates.
    Well, within the last 10 years or so, the impact from let's 
say accidents that have--related to these shallow flows are 
more in the terms of billions of dollars--and just in the last 
year, in the hundreds of millions. This is not to say that all 
shallow flows are gas hydrates, but the more that we have 
gotten into this study, the more that we see similarities and 
ties.
    For instance, I had an opportunity to speak with the 
supervisor for a deep water program of a major producer here a 
few months back. This was after their latest problem with so-
called shallow flows. And I asked him--I said, ``On how many 
occasions have your sensors picked up fresh water in these 
shallow flow sediments?'' And he looked at me straight in the 
eye and said, ``On every occasion.''
    Well, how are you going to get fresh water in these marine 
seawater-saturated sediments, unless you had a model, whereby 
you went with the disassociation of hydrates which exclude salt 
in their process of formation? And so when they disassociate, 
they are manifested as fresh water.
    So I am just bringing this up to suggest that this hazard 
problem could be much larger when we get to the bottom of it. 
And that is one of the things we are doing in our program. And 
so we are--I see my yellow light is on--but we have got two 
ongoing programs.
    One is a mobile survey, and we are working with a major 
industry in this regard toward developing high-resolution 
seismic techniques. And we have had really good luck with this, 
being able to discern the very fine structural characteristics 
that can identify these shallow flows and/or hydrates as they 
occur. And so we are well on the way with this, in a 
cooperative endeavor, with industry.
    Then we have another program that deals with monitoring. 
And this would be a subsea station. And I am very pleased to 
announce that Conoco has very graciously provided us access to 
one of their subsea platforms at their Marquette location, 
which is very ideally suited for a subsea study. Now they are 
up on the brink of the slope at about 600 feet, but within 2 
miles over the edge is their Juliette platform which is 1,800 
feet at only 2 miles distance. And there are a number of 
hydrate occurrences around there. So we can put our sensors 
there. It will save us a tremendous amount of money, just 
through their efforts to help us in this instance.
    There was a mention in the--I think in one of the questions 
to the first panel. Is industry helping in any way? Well, 
industry is not putting up dollars, but if I were to put a tag 
on this, it would be worth a half a million, easy, because it 
provides us with a base, a power source, fiber optic 
communications, satellite uplink, the whole works, that we can 
put our sensors out and work from. And this is a collective, 
cooperative effort with the Navy Research Lab at Stennis, 
ourselves, a number of universities in our region, particularly 
in Louisiana, and also some of our friends up at USGS at the 
Woods Hole facility.
    So we have a number of these projects that are ongoing, 
that are cooperative efforts. And like I say, we all--the three 
of us--tie together and bank on each other's expertise and 
assistance in all these endeavors.
    Thank you.
    [The prepared statement of Dr. Woolsey follows:]

    [GRAPHIC] [TIFF OMITTED] T8645.027
    
    [GRAPHIC] [TIFF OMITTED] T8645.028
    
    [GRAPHIC] [TIFF OMITTED] T8645.029
    
    [GRAPHIC] [TIFF OMITTED] T8645.030
    
    [GRAPHIC] [TIFF OMITTED] T8645.031
    
    [GRAPHIC] [TIFF OMITTED] T8645.032
    
    [GRAPHIC] [TIFF OMITTED] T8645.033
    
    [GRAPHIC] [TIFF OMITTED] T8645.034
    
    Mr. Walden. Thank you, Dr. Woolsey.
    Dr. Cruickshank.

  STATEMENT OF MICHAEL J. CRUICKSHANK, DIRECTOR, OCEAN BASINS 
                 DIVISION, UNIVERSITY OF HAWAII

    Mr. Cruickshank. Mr. Chairman, I am very glad to be here to 
have the opportunity to testify in support of these bills.
    As you now know, we are part of a three-legged stool, and 
we in Hawaii, look after the ocean basins, primarily in the 
Pacific.
    We heard a lot about big numbers this morning like 
thousands of millions or trillions of cubic feet. My ``gee, 
whiz'' number or--it is not exactly a number, but a factoid--is 
that in the Pacific Ocean, the area of seabeds under the 
jurisdiction of the United States is greater than the area of 
the terrestrial United States and almost totally unexplored.
    If you look at the potential for hydrates in this area, 
there are many, many thousands of square miles of seabeds which 
have a potential--anywhere where the sediment is over 1,000 
meters thick, and there has been some significant deposition of 
organic materials. So you are looking at a tremendous potential 
here right across the Pacific Ocean to Guam and beyond. Hawaii 
being in the middle of all this, has a prime location to work 
with all these island areas--not only the U.S. jurisdiction, 
but others as well--and we certainly feel that is important at 
this stage because of the global consequences. We not only have 
the resource, but the potential for the addition of methane to 
the atmosphere affecting global climate change.
    In terms of technology, you have heard already that we 
really don't know a lot about characterization of these methane 
hydrates. To simplify it in our terms, we see a need to target, 
to go to look for them, characterize them in all ways when we 
find them, and then work on the recovery method.
    I just got back from a technology conference last week. I 
believe you mentioned manganese nodules. We have worked with 
those things for 30-40 years now, and there is no question that 
the United States still takes the lead in the technology for 
deep seabed mining--not only for nodules, but for crust and for 
sulfide minerals. There is a lot of activity going on just now, 
in terms of catch-up by other countries--Japan, Korea, and 
China and we have close association with these countries and 
their government research groups.
    But at the Offshore Technology Conference, it was very 
apparent with the deep oil leasing in the Gulf at 3,000 meters, 
that the oil companies are now developing a lot of the very 
critical technology that we needed 20 years ago for the mining. 
It is now possible to put down 50 megawatts of power to the 
bottom. It is quite possible to put down 50 ton ROVs to roam 
around the bottom. It is quite possible to put down a 5,000 
meter pipeline from a reel, send it down and bring it back up 
again, at 30 miles an hour. These things are just mindboggling. 
And this is all through oil development. We are going to be 
using this technology--and hydrates are a natural for this.
    The first thing we have to do, of course, is to find a 
target and characterize it. And we have a very wide network of 
connections, not only with the oil companies and through our 
other centers, but through the international cooperation that 
we have had over the years.
    So we are looking with great interest on the pursuit of the 
particular efforts proposed in the bill.
    And nobody mentioned the idea of natural sublimation of the 
hydrates. It sometimes happens with explosive force, creating 
tremendous surges of gas, that has caused at least one, if not 
more drilling rigs to have been lost. And it has also been 
suggested--and this is another ``gee, whiz'' if you like--that 
the reason the Bermuda Triangle is so dangerous, is because 
every now and then, the seabed gets a burp as the warm Gulf 
stream sweeps around and releases gas. It may not be true, but 
it would certainly be interesting to find that out.
    Thank you.
    [The prepared statement of Mr. Cruickshank follows:]

    [GRAPHIC] [TIFF OMITTED] T8645.035
    
    [GRAPHIC] [TIFF OMITTED] T8645.036
    
    [GRAPHIC] [TIFF OMITTED] T8645.037
    
    [GRAPHIC] [TIFF OMITTED] T8645.038
    
    [GRAPHIC] [TIFF OMITTED] T8645.039
    
    [GRAPHIC] [TIFF OMITTED] T8645.040
    
    [GRAPHIC] [TIFF OMITTED] T8645.041
    
    [GRAPHIC] [TIFF OMITTED] T8645.042
    
    [GRAPHIC] [TIFF OMITTED] T8645.043
    
    [GRAPHIC] [TIFF OMITTED] T8645.044
    
    [GRAPHIC] [TIFF OMITTED] T8645.045
    
    [GRAPHIC] [TIFF OMITTED] T8645.046
    
    [GRAPHIC] [TIFF OMITTED] T8645.047
    
    Mr. Walden. Thank you, sir. I appreciated your comments.
    How will the research center which you run participate in 
hydrate research? Is there an opportunity for Guam-based 
operations or from any other U.S. possessions to study the deep 
ocean trench environment for hydrates?
    Mr. Cruickshank. Well, I believe so. It is obviously a ship 
mining operation, and we do have a research fleet of our own in 
Hawaii. And we also work with other agencies to acquire ship 
time.
    Guam is certainly the far-end of the regime. I think it 
would be very appropriate to have some kind of presence there. 
We have talked about it in previous times. We never had the 
capital to do that, but it certainly makes a lot of sense----
    Mr. Walden. Okay.
    Mr. Cruickshank. [continuing] because that means that you 
have got the whole coverage in between, the east and west 
Pacific.
    We are working, also, very closely with Battelle and the 
Naval Research Laboratory, with Dr. Coffin who is here now and 
has prepared a white paper on the research to look at the 
characterization of these hydrates and many of the scientific 
issues that are involved in hydrate recovery.
    Mr. Walden. Okay.
    Do you believe, as with remote native villages in the 
Arctic, that methane hydrates represent a potentially viable 
source of energy for remote Pacific island communities?
    Mr. Cruickshank. That is possible; yes.
    Mr. Walden. Possible?
    Mr. Cruickshank. The cost of deep water work is coming 
down, as the oil companies take it, in their stride. These 
depths used to be considered totally out of sight. Now, they 
are looking to be not quite yet conventional, but cutting edge. 
In 10 years time, that will be conventional.
    Yes, a very strong possibility of these deposits putting a 
completely new face on the Pacific island resources.
    Mr. Walden. Okay.
    Dr. Woolsey, how soon do you estimate that we could have an 
operational pilot project for gas production from hydrates in 
the Gulf of Mexico, OCS?
    Dr. Woolsey. I think that, as was brought out earlier by my 
colleague, Dr. Trent, that Alaska probably takes the lead, as 
far as having the opportunity to produce the first resource 
derived from gas hydrates. It is more of a natural there and we 
certainly understand that logic.
    We also know that a lot of the--working closely with the 
industries that are operating in the Gulf, their prime interest 
now is to pursue the conventional resources. But they have 
apparently let you know that they have the infrastructure to 
produce these hydrates. They want to know all there is to know 
about producing hydrates. So at an appropriate time, they can 
switch over. They have--you know, they have all the big 
gathering facilities in the Gulf that lead into the big 
pipelines that run up to the big user areas of the Northeast. 
And so they look at production--eventual production--of gas 
hydrates in the Gulf as a major industry. But they are quick to 
remind you that they have got a lot of conventional production 
for years to come.
    Their biggest concerns now are these hazards that represent 
a tremendous risk, and that is why they are backing some of 
these projects that we are involved with them in, to be able to 
identify and really identify and assess the occurrence of these 
hazards before they go in and set up unknowingly and have the 
whole thing turn to quicksand under their feet--and I think it 
was brought out in the first session--that there are two areas 
of concern here.
    One is the natural triggering of these hydrates, just by 
natural phenomena--be it seismic, the water temperature 
changes, gas chemistry, whatever. And then there is the 
anthropogenic, or man-induced activities, when you actually go 
in there and try to drill or establish a site that might 
trigger these, because one thing we do know that these hydrates 
occur right on the phase boundary. If you put up the phase 
diagram that we try to present to our students, we are right on 
the edge there, and it doesn't take much to kick these things 
over into either a gaseous state if they are in the hydrate or 
vice versa. And so that is where this monitoring station is 
going to come in, to better identify just what causes these 
changers so we will have a better understanding and establish 
safer procedures in their assessment.
    But when the time comes, the majors in the Gulf are very 
keen on letting you know that they want to be in the number one 
seat to produce hydrates and to use the facilities that they 
have established there.
    Mr. Walden. Tell us more about the so-called hydrate mounds 
offshore. Do they have exceptional potential for commercial 
methane production because of hydrate----
    Dr. Woolsey. The mounds are more of curiosities. They, more 
or less, are the tip of the iceberg, let's say. They are, in 
most cases, you find these in the vicinity of a source of 
methane, which is typically associated with a salt dome. And in 
the case of salt domes, there is a myriad of fractures that 
tend to characterize this--the area around the salt domes. And 
gas, then--these fractures provide conduits for the natural gas 
to migrate up to the surface. And then when this gas that is 
probably in a rather warm state, moves into this colder zones 
near the sea floor, with the pressures in the range of 150 psi 
at about 500 meters and temperatures in the range of about 4 
degrees centigrade, they freeze up.
    And so these are typically in the upper reaches, and so--
also, when they freeze, they become lighter than anything 
around them, so they will actually work their way up toward the 
surface. And they will actually breach the sea floor, very 
often on a submersible or an undersea video, you can see an 
escarpment on the sides of these mounds. And it will be just 
blue ice there, right there on the surface.
    And then maybe you will come back a week later and it is 
gone. And where this large area was inhabited by this big mound 
of blue ice, now you have got a big slump, a big subsidence. 
And very often it is breached, and you will see an avalanche 
that had formed. If you look and just do a survey of these 
types of occurrences, you will see some mega occurrences that 
are measured in many tens of miles.
    Mr. Walden. Really?
    Dr. Woolsey. There is one off the coast of Norway, I think, 
where the avalanche is measured some 160 miles in extent. So 
some of these can be quite large.
    And in our area, we have this almost catastrophic 
disassociation along our slope off the Gulf Coast. And one of 
the peculiarities that we have in the region are what we refer 
to as ``loop currents.'' When you get real strong trades 
blowing into the Caribbean, and we get a real strong jet of 
water coming up through the strait of Yucatan, and a little 
push of loop current up close to our shore. And these loop 
currents will maybe occupy the bottom area there for maybe as 
much as six weeks or so. And so there is an opportunity for a 
warming of these sediments. And we will go from maybe 4 degrees 
C up to 11 degrees C. And then all of a sudden, we might see 
these various mounds dissociate rapidly. And these mounds might 
be just all associated with a more common substratum of 
hydrates. And the whole thing could--and very often does--give 
way. And if you are downstream of that, it can be quite 
hazardous.
    Mr. Walden. How high are those mounds from the sea floor?
    Dr. Woolsey. Usually a pretty good--an average height would 
be maybe 5 meters, something like that.
    Mr. Walden. Oh.
    Dr. Woolsey. Say 3 to 5 meters. And maybe they would be 
measured laterally by as much as 100 meters or so. And then you 
see the smaller ones, but usually the ones that are more often 
studied are more in that realm.
    And what you find with the larger or more typical type 
mounds, the biologists often refer to them, from their 
perspective of interest, as a chemosynthetic community, because 
you have such an abundance of life--that profusion of life 
around them.
    One problem that we have had in studying the shallower 
occurrences is that the deep troll shrimpers, after the 
imperial red shrimp will go out as deep as 700 meters sometimes 
trying to pick these things up. And so we have learned a lot 
from the shrimpers--where not to put our expensive equipment. 
Now they are not supposed to go in these regions. These areas 
are supposed to be protected by the Minerals Management 
Service, but they are quite ubiquitous out on the slope below 
500 meters.
    Mr. Walden. Okay. Thank you, Dr. Woolsey.
    Dr. Tent, based on your testimony, are you suggesting that 
Alaska would be the best location for a pilot development of 
hydrate resource because the on-land permafrost deposits could 
probably be extracted with the least potential for catastrophic 
impact?
    Dr. Trent. Potential for what now?
    Mr. Walden. That doing the development in the permafrost, 
you could extract it there with the least potential for 
catastrophic impacts. Is that better than out in the ocean?
    Dr. Trent. Well, I believe we know far more about it, with 
all the wells that have been drilled in Prudhoe Bay area.
    There is still some problems that exist in having good 
bonding between the casing and the permafrost as we go through 
it, but not a serious problem.
    The other thing, of course, we have the infrastructure, the 
roads. There has been--with Dr. Collett and the Japanese, we 
have identified at least two existing pads that we can put a 
new winter ice road to and drive a rig right to them, and that 
would save a considerable amount of money when it comes to 
doing basic research.
    Mr. Walden. Okay. So from your experience, what are the 
relative drilling costs for, say, a 1,500 feet well in the 
Arctic permafrost region versus, say, a well at the same depth 
offshore in, say, 2,000 feet of water.
    Dr. Trent. I am going to look across my shoulder at Dr. 
Collett, but I think we would probably be looking in the 
neighborhood of $3 to $4 million.
    Mr. Walden. For onshore?
    Is that right, Dr. Collett?
    Could you speak into the microphone?
    Dr. Collett. It depends a great deal on the----
    Mr. Walden. Right.
    Dr. Collett. This is Tim Collett, I am with the U.S. 
Geological Survey.
    It depends a great deal on the configuration of the well. 
But in an industry development mode, you are probably looking 
at around $2 million to $4 million, depending on what you are 
actually going to do in the well.
    In a marine environment, we would estimate about two to 
three times more.
    Mr. Walden. Dr. Woolsey, would you agree with that--in a 
marine environment?
    Dr. Woolsey. Yes. I think that would--and that would 
probably be a little cheaper than we could do this in the Gulf.
    They do have--another thing that Dr. Collett mentioned 
earlier was that there has been a tremendous amount of 
expertise developed by the Russians. Here a few weeks ago, we 
had a workshop down on the Gulf Coast, and we had a contingent 
of eight Russian researchers that were experts in gas hydrates. 
And they are working very cooperatively with us and have for 
some time. We have had a cooperative program with this group 
for about 10 years now, and so they have been very open to 
share with us information on a lot of their work in some of the 
Siberian fields. And so I think that it would be very 
appropriate to utilize some of this expertise in Alaska as 
well.
    Now, the Russians are no better off than we are when it 
comes to subsea production of hydrates. We have learned a lot 
from them on using various technologies to identify and assess 
these resources, but they are back to square one, just as we 
are, in----
    Mr. Walden. Yes.
    Dr. Woolsey. [continuing] through the process of doing a 
subsea----
    Mr. Walden. Yes.
    Dr. Woolsey. [continuing] completion.
    Mr. Walden. As long as you are not sharing nuclear secrets, 
we will probably be okay.
    [Laughter.]
    Mr. Walden. So, the research dollar for actual field 
studies, Dr. Trent, rather than laboratory studies, you would 
say goes much farther onshore as opposed to off?
    Dr. Trent. Yes, and I think another thing that onshore, you 
can go year to year to year, where offshore, you would have to 
maintain your platform. Onshore, your costs of maintenance 
would be much less.
    Mr. Walden. And one final question for each of you to 
answer briefly if you would.
    Do you believe the program could provide discernible 
benefits at the $42.5-million level over 5 years that is sought 
after in the bill?
    Dr. Trent, do you want to start?
    Dr. Trent. I believe that that would be adequate, 
especially with industry support.
    Mr. Walden. Okay.
    Dr. Trent. Cost sharing in a lot of cases.
    Mr. Walden. All right.
    Dr. Woolsey?
    Dr. Woolsey. In the Gulf, I would certainly like to see 
this elevated. I think you referred earlier to something in my 
written statement where I have been hearing--and very pleased 
to hear that--from a number of experts in government and 
industry suggesting that a figure somewhere between $150 and 
$200 million over a 10-year period would be much more 
appropriate. And we need to look at a 10-year, more than we do 
a 5-year. And also--then, this was two different groups that 
had arrived at these figures separately, but from their own 
perspectives. And so I was very heartened to see this.
    Just in my own area, just talking about working offshore 
with this subsea monitoring program, one of the tools that we 
would be using would be an autonomous vehicle. Well, those 
don't come cheap in themselves, but we would have this docked 
remotely, and when we would see one of these warm currents 
coming in through satellite imagery, we could launch this 
remotely to go out to these pre-located sites, where it could 
make these readings remotely, and then come back and dock and 
download. But we are talking about a vehicle that, for openers, 
is going to run around $1.5 million.
    So, when you start talking about these types of 
technologies and tools--but when you look at that against a 
background of just this last year, several $100 million lost 
because of our lack of knowledge of hydrates and associated 
problems--not even talking about, you know, the eventual payoff 
in production and the problems with greenhouse gases--just 
looking at the hazards, alone, then that puts it all in 
perspective.
    And I think there is a certain urgency there, in trying to 
address these problems that are represented by the hazards.
    Mr. Walden. Okay.
    Dr. Cruickshank?
    Mr. Cruickshank. I am inclined to agree with Dr. Woolsey, 
that long term is more appropriate. And also, as you get into 
the deep water, costs go up commensurately.
    There is no question that the oil companies are now looking 
at deep water wells. They are very expensive. The latest 
drilling vessels to be built may cost about $230,000 a day, 
which relates to what has been stated previously. Nevertheless, 
over the long-term, these costs are going to be unavoidable. It 
will be in the later part of the program that these very high 
costs will occur, when it is necessary to drill and even put 
down systems for hydrate production--I don't think you should 
start off big and stay flat. It should progress appropriately, 
as new knowledge is attained.
    Thus what you were mentioning before, about $10 million a 
year, at the beginning, would be adequate. But the 
anticipation, it would definitely go up, as we learn more.
    Mr. Walden. Okay, that is it for questions from the 
Committee.
    [Laughter.]
    I appreciate all your testimony; it has been very 
enlightening for myself, and I know for the staff, and for 
having it in the record as well.
    We will keep the record open for two weeks for additional 
testimony and comments from the public.
    And, unless there is anything else, to come before the 
Committee, I will----
    Yes, Mr. Cruickshank?
    Mr. Cruickshank. I just have a couple of things I would 
like to have for the record----
    Mr. Walden. Okay.
    Mr. Cruickshank. [continuing] for the Committee.
    Mr. Walden. Yes; just submit those to the staff. We will be 
happy to include those as part of the public record.
    [The information follows:]
    Mr. Cruickshank. Thank you, Mr. Chairman.
    Mr. Walden. Thank you, gentlemen, for your testimony.
    The Committee stands adjourned.
    [Whereupon, at 4:20 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
                   Letter to Mrs. Cubin from Dr. Haq
                       National Science Foundation,
                                   4201 Wilson Boulevard,  
                                 Arlington, Virginia 22230.
                                                       June 8, 1999
Hon. Barbara Cubin,
Chairman, Subcommittee on Energy
and Mineral Resources,
U.S. House of Representatives,
Washington, DC 20515
Dear Ms. Cubin:
    I am responding to your request of May 28, 1999, for additional 
information on methane hydrates as follow-up to my testimony before the 
House Resources Subcommittee on Energy and Natural Resources.
    1. What is the chemical purity of methane hydrates?
        Gas hydrates in nature are relatively pure, composed of methane 
        and water. Rarely, heavier hydrocarbons (e.g., propane, butane) 
        may also occur in trace quantities (<l%).
    2. Are there any contaminants contained within, such as heavy 
metals, organic chemicals, or other waste products such that refining 
or separation would be necessary, and waste products would then have to 
be disposed of in order for hydrates to be utilized as an energy 
resource?
        During the formation of the hydrate under high pressure and low 
        temperature conditions, the methane molecule is captured inside 
        a cage of water molecules and chilled to form a solid, while at 
        the same time expelling salts that occur dissolved in pore 
        waters where the hydrate is forming. Since the hydrates occur 
        more commonly dispersed in the sediment, the sediment itself 
        can be considered as ``waste product'' if the hydrate is to be 
        exploited. In fact, sediment may be a ``co-product'' of 
        production from hydrates, which the industry is well equipped 
        to handle. If the hydrate occurs more concentrated locally, it 
        may still contain smaller amounts of sediments associated with 
        it. Sediments generally contain particles of sand, silt and/or 
        clay, as well as organic materials and trace elements.
    Please contact me should you need additional information.
            Sincerely,
                                              Bilal U. Haq,
                                                Program Director,  
                                      Marine Geology and Geophysics

[GRAPHIC] [TIFF OMITTED] T8645.048

[GRAPHIC] [TIFF OMITTED] T8645.049

[GRAPHIC] [TIFF OMITTED] T8645.050

[GRAPHIC] [TIFF OMITTED] T8645.051

[GRAPHIC] [TIFF OMITTED] T8645.052

[GRAPHIC] [TIFF OMITTED] T8645.053


</pre></body></html>
